 
 
 
    Semian
    S    nnual Repo
                  ort to the       October 1,, 2010 •
                                   March 31, 2011
        C
        Congre
             ess 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
    Office of Ins
                spectoor Gen
                           neral
               fo
                or the
    Railroad Re etirement Bo
                           oard
                UNITED STATES RAILROAD RETIREMENT BOARD

                            OFFICE OF INSPECTOR GENERAL


                                      April 29, 2011

The Honorable Michael S. Schwartz, Chairman
Railroad Retirement Board
844 North Rush Street
Chicago, Illinois 60611-2092

Dear Mr. Schwartz:

I am pleased to submit our Semiannual Report to the Congress. This report
provides a descriptive summary of our activities and accomplishments during the
period of October 1, 2010 through March 31, 2011. This report is submitted in
accordance with Section 5 of the Inspector General Act of 1978, as amended.
The Act requires that you transmit this report, along with any comments you may
wish to make, to the appropriate Congressional committees and subcommittees
within 30 days.

During this reporting period, we completed our audit of the RRB’s fiscal year
2010 financial statements, issuing an unqualified opinion. In addition we:

   •   published our “Letter to Management” detailing matters related to internal
       control identified during the financial statement audit;
   •   prepared our statement on Management and Performance Challenges
       Facing the Railroad Retirement Board;
   •   published the results of our annual evaluation of the agency’s information
       security program; and
   •   reviewed the RRB’s Audit and Compliance Division.

Our criminal investigators achieved 38 criminal convictions, 52 indictments and
informations, 11 civil judgments, and more than $98 million in financial
accomplishments resulting from OI’s investigative work, including joint
investigations.

The Office of Inspector General sincerely appreciates the ongoing assistance
extended to our staff during the performance of their audits and investigations.
We look forward to a continued cooperative relationship.

                                                Sincerely,

                                                Original Signed by

                                                Martin J. Dickman
                                                Inspector General
844 N RUSH STREET CHICAGO IL 60611-2092                             Printed on recycled paper
                                                                                                                                  October 1,
                                                                                                                                          1 2010 •
                   Sem
                     miannua
                           al Repo
                                 ort to the Con
                                              ngress                                                                              March 31, 2011

                        


INTRODU
      UCTION .................................................................................................................................... 1 
   Railroaad Retirement Board .............................................................................................................. 1 
   Railroaad Retirement Board Meembers .............................................................................................. 1 
EXECUTIV
       VE SUMMAR
               RY ......................................................................................................................... 2 
   Office of Inspectorr General .............................................................................................................. 2 
   Office of Audit .................................................................................................................................. 2 
   Office of Investigations .................................................................................................................... 3 
      R 1, 2010 – M
OCTOBER           MARCH 31, 2
                            2011 ACCOM
                                     MPLISHMENTS ............................................................. 4 
   Office of Audit .................................................................................................................................. 4 
       Fiscal Year 2010
                      0 Evaluation of Informattion Securityy at the Railroad Retirem
                                                                                   ment Board ........ 4 
       Opin
          nion on the Financial Staatements .......................................................................................... 5 
       Report on Internal Control ........................................................................................................... 5 
                    pliance with Laws and Regulations .................................................................... 6 
       Report on Comp
         nagement an
       Man         nd Performaance Challen
                                         nges Facing tthe Railroad Retirement Board .............. 6 
       Fiscal Year 2010
                      0 Financial Sttatement Au
                                              udit Letter to
                                                           o Managemeent ........................................ 8 
       Review of the R
                     Railroad Retirement Board’s Audit an
                                                        nd Complian
                                                                  nce Division ........................... 9 
       Concerns Relate
                     ed to the Railroad Retireement Board                d’s Audit and        d Compliancce Division’s 
       Emp
         ployer Audit Reports ............................................................................................................. 10 
         nagement Decisions and
       Man                    d Implementtation .......................................................................... 11 
   Office of Investigations .................................................................................................................. 12 
       Inveestigative Acccomplishmeents ................................................................................................. 12 
       Currrent Caseloaad ....................................................................................................................... 13 
   Repressentative Invvestigations ....................................................................................................... 14 
       Disaability Investtigations ............................................................................................................. 14 
       Uneemploymentt ‐ Sickness In
                                  nsurance Invvestigations ............................................................... 15 
       Retiirement‐Survvivor Benefits and Repreesentative P
                                                          Payee Investigations ............................... 16 
       Railroad Medicaare Investigaations .............................................................................................. 18 
       Civill Enforcement Results .......................................................................................................... 20 
   Hotlinee Contacts ............................................................................................................................. 21 
OTHER O
      OVERSIGHT A
                ACTIVITIES .......................................................................................................... 22 
   Americcan Recoverry and Reinvvestment Actt of 2009 ..................................................................... 22 


  Table
      e of Conten
                nts
                                                                                                                                     October 1,
                                                                                                                                             1 2010 •
                   Sem
                     miannua
                           al Repo
                                 ort to the Con
                                              ngress                                                                                 March 31, 2011

                        
                        
   Occupational Disability Prograam ................................................................................................... 22 
   Railroaad Medicare
                    e Fraud Deteection Contraacts ............................................................................. 23 
OUTREAC
      CH ACTIVITIEES ....................................................................................................................... 25 
OPERATIONAL ISSUEES ........................................................................................................................ 27 
   Nation
        nal Railroad Investment Trust ............................................................................................... 27 
LEGISLATTIVE & REGU
                  ULATORY REV
                            VIEW ............................................................................................... 27 
APPENDIICES ....................................................................................................................................... 28 
   Appenndix A – Officce of Inspecttor General Reports and                           d Other Publicly Available Documentts 
   Issued ............................................................................................................................................. 29 
   Appenndix B – Audiit Reports with Question             ned Costs orr with Recom                mmendations That Fundss be 
   Put to Better Use ........................................................................................................................... 30 
       ndix C – Repo
   Appen           ort on Receivvables, Waivvers, and Recoveries .................................................. 31 
   Appen
       ndix D – Significant Matters .................................................................................................. 33 
   Appen
       ndix E – Peerr Reviews ............................................................................................................ 34 
   Appen
       ndix F – Repo
                   orts Prepared by Management ........................................................................ 35 
   Appen
       ndix G – Repo
                   orting Requiirements ......................................................................................... 40 
   Appen
       ndix H – Acro
                   onyms ................................................................................................................. 41 
   Appen
       ndix I – Legal Referencess ....................................................................................................... 42 




  Table
      e of Conten
                nts
           Semiiannua
                    al Repo
                          ort to th
                                  he Congress                                      October 1,, 2010 •
                                                                                   March 31, 2011




       IN
        NTROD
            DUCTIO
                 ON
       R
       Railroad
              d Retirem
                      ment Board
The Railroad Retire ement Boarrd (RRB) iss an independent agen   ncy in the executive
branch of
        o the Fede eral governm
                              ment. The RRB admin     nisters com
                                                                mprehensive  e disability,
retireme
       ent-survivorr, and unem
                             mployment-ssickness insurance be    enefit progra
                                                                             ams for the e
nation's railroad wo
                   orkers and their
                               t    familie
                                          es. These programs are a codified under the
Railroadd Retiremennt Act (RRAA) and the Railroad
                                          R         Unnemployme  ent Insurancce Act (RUIIA),
respectivvely. The agency’s
                    a        ce
                              entral missiion is to payy accurate and timely RRA and RUIAR
benefits.

During fiscal
        f      year (FY)
                    (     2010, the
                                 t RRB pa   aid approximmately $10.8 billion, net of
recoveries and offs setting colle
                                ections, in retirement and
                                                       a survivor benefits to  o roughly
582,000 0 beneficiaries. The RRB also pa    aid roughly $136.1 million, net of recoveries and
offsetting collection
                    ns, in unemployment and a sicknesss insurance e benefits to
                                                                              t almost
22,000 unemploym
         u         ment insuran nce beneficciaries and 18,000 sickkness insurrance
beneficiaaries.

The RRB B also has administrattive respon   nsibilities forr certain be
                                                                      enefit payments under the
Social Security
       S         Actt, including the adminisstration of Medicare
                                                          M           benefits for qualifying
                                                                                   q
railroad workers an nd depende   ents. Pursuuant to statu utory autho ority, the RR
                                                                                  RB, in
consultaation with th
                    he Centers for Medicare and Med       dicaid Serviices (CMS)), awards an  nd
monitorss the singlee nationwide e Medicare Part B Serrvices contrract. During     g FY 2010, the
Railroadd Medicare contractor processed more than 10 million Railroad Medicare Part B
claims worth
        w     over $869
                    $      million
                                 n in paid meedical insurrance bene   efits on behaalf of more
than 4688,000 Railro oad Medica  are beneficiiaries.

       R
       Railroad
              d Retirem
                      ment Board Mem
                                   mbers

The Boa ard consists
                   s of three members
                              m          whho are appoointed, with
                                                                 h the advice
                                                                            e and conse ent
of the Se
        enate, by th
                   he Presiden nt of the Un
                                          nited Statess. One Boa ard member is appointted
upon thee recomme endation of railroad em mployers, annother mem mber is appoointed uponn the
recomm mendation off railroad la
                               abor organizzations, and the third, who is the Chairman, is
appointeed to repres
                   sent the public’s intere
                                          est. Board Members’ terms
                                                                  t     are five years in
                                                                                        n
length and expire in
                   n staggered d years.




    Office of Inspec
                   ctor Generral for the Railroad
                                         R        R
                                                  Retirement Board │ P a g e 1
            Semiiannua
                     al Repo
                           ort to th
                                   he Congress                                       October 1,, 2010 •
                                                                                     March 31, 2011




       E
       EXECUTIVE SU
                  UMMAR
                      RY

       O
       Office off Inspector Gene
                               eral

The Railroad Retire ement Solvvency Act off 1983 ame  ended the RRA
                                                                R   to provvide for an
Office off Inspector General (O
                              OIG) for the RRB. The   e 1988 ameendments too the Inspector
General Act added the RRB to   o the list of covered ag
                                                      gencies.

The Insppector General is a Prresidential Appointee,
                                          A            with Senatee confirmattion, who
serves as
       a an indep  pendent and d objective voice to bo
                                                     oth the RRB B Board Me  embers and  d the
Congresss. It is the
                   e Inspector General’s responsibilit
                                          r            ty to promo
                                                                 ote econom my, efficienccy,
and effe
       ectiveness in the RRB’s programss and opera   ations. To that
                                                                  t    end, th
                                                                             he OIG
conducts audits/evaluations, manageme
                               m           nt reviews, and inspecctions of thee RRB’s
programms and operrations. Ass a product of its effortss, the OIG offers recommendatio   ons
for agen
       ncy improve ement to RR RB manage  ement. The e OIG also identifies and
                                                                             a investig  gates
cases off waste, fra
                   aud, and abuse in the RRB’s
                                          R       prog
                                                     grams and operations.
                                                                  o             The OIG
works cllosely with Federal proosecutors and
                                          a makes the approp     priate referra
                                                                              als for criminal
prosecution, civil prrosecution, monetary recovery, or
                                                     o administrrative sancttions.

The OIGG has appro  oximately 50 employee    es assigned d to three operational
                                                                     o            componentts:
the immediate Offic ce of the Inspector Ge  eneral, the Office
                                                         O      of Auudit, and thee Office of
Investiga
        ations. The  e OIG cond  ducts operaations from several locations: the   e RRB
headqua arters in Chhicago, Illino
                                 ois; an inve
                                            estigative fie
                                                         eld office in
                                                                     n Philadelphhia,
Pennsylvania; and domicile in   nvestigativee offices in Arlington,
                                                         A           V
                                                                     Virginia; Houston, Texa  as;
Miami, Florida;
        F        Neww York, New   w York; andd San Dieg go, Californiia. These domicile
                                                                                 d         offfices
provide increased investigativ
                     i          ve presence e and aide ini the effective and effficient
coordinaation of join
                    nt investigattions with other
                                            o      Inspecctor Genera al offices an
                                                                                 nd law
enforcemment agenc  cies.

       O
       Office off Audit

The Office of Audit (OA) conducts financcial, perform
                                                    mance, and compliance   e audits annd
evaluatio
        ons of the RRB’s
                   R      prog
                             grams and operations.
                                         o            During thiis reporting period, the
                                                                                       e
OA:

   •   published th
                  he results off their annu
                                          ual evaluatio
                                                      on of the ag
                                                                 gency’s info
                                                                            ormation
       security prog
                   gram;

   •   completed itts annual audit of the RRB's
                                          R     comparative fin
                                                              nancial state
                                                                          ements for the
       fiscal years ended Sepptember 30, 2010 and 2009 along  g with the re
                                                                          elated reports
       on internal control
                   c       and compliance e;


    Office of Inspec
                   ctor Generral for the Railroad
                                         R        R
                                                  Retirement Board │ P a g e 2
              Semiiannua
                       al Repo
                             ort to th
                                     he Congress                                                     October 1,, 2010 •
                                                                                                     March 31, 2011




    •    prepared the
                    e Inspectorr General's statement of
                                                     o Managem
                                                             ment and Performanc
                                                                      P          e
         Challenges Facing the Railroad Retirement
         C                               R          B
                                                    Board;

    •    published a "Letter to Managemen
                                 M           nt" detailing
                                                         g matters re
                                                                    elated to intternal contrrol
          dentified du
         id          uring the financial state
                                             ement auditt; and

    •    re
          eviewed the
                    e RRB’s Au
                             udit and Compliance Division.
                                                 D

All auditts complete
                   ed during this reporting
                                          g period are
                                                     e discussed
                                                               d in further detail
                                                                            d      on pa
                                                                                       ages
4 throug
       gh 11. All reeports/evaluations aree available on
                                                      o our webbsite at wwww.rrb.gov/oiig.

         O
         Office off Investig
                          igations
The Office of Inves
                  stigations (O
                              OI) focuses its efforts on
                                                      o identifyin
                                                                 ng, investig
                                                                            gating, and
presenting RRB be enefit fraud cases for prosecution
                                         p           n. OI conduucts investig
                                                                            gations
througho
       out the Unitted States relating to:

    •    th
          he fraudulent receipt of
                                 o RRB disa
                                          ability, unem
                                                      mployment--sickness, and
                                                                           a retirement-
         survivor bennefits;
    •    R
         Railroad  Meedicare fraud;
    •    fa
          alse reportin
                      ng by railro
                                 oad employe
                                           ers; and
    •    criminal viola
                      ations and misconducct by RRB personnel.
                                                      p

        ative efforts
Investiga           s can resultt in criminal conviction
                                                       ns; civil judg
                                                                    gments and d penalties;
administtrative reco
                   overy of pro
                              ogram bene   efit funds; an
                                                        nd/or admin nistrative sa
                                                                                anctions.
From Occtober 1, 20 010 throughh March 31, 2011, OI achieved:

    •    6 arrests;
    •    52 indictmen nts and info
                                 ormations;
    •    38 convictions;
    •    11 civil judgments;
    •    43 referrals to the Depa artment of Justice;
                                             J        and
                                                        d
                                 1
    •    m
         more  than $98 million in financial accomplisshments.

Defenda       ants, in the aggregate,, were sentenced to more                 m    than 91
                                                                                         1 years of jail, 91 yearrs of
probatio      on, 3 years of suspend                    ded sentencces, and 5220 hours of communityy service.
Addition      nal details re        egarding OI’s       O activitiess are discussed on pa
                                                                                        ages 12 throough 21.
                                                       
1
  The tota
         al amount of financial accom mplishments reflect
                                                    r     fraud ammounts related to programss administered
                                                                                                         d
exclusivelyy by the RRB and fraud am mounts from otther Federal programs
                                                                 p         suchh as Medicare
                                                                                           e or Social Seccurity
which werre included in the disposition resulting fro
                                                    om the investig
                                                                  gation.



    Office of Inspec
                   ctor Generral for the Railroad
                                         R        R
                                                  Retirement Board │ P a g e 3
            Semiiannua
                     al Repo
                           ort to th
                                   he Congress                                    October 1,, 2010 •
                                                                                  March 31, 2011




       OCTOB
       O   BER 1, 2010
                  2    – MARCH
                         M   H 31, 20
                                    011
       A
       ACCOM
           MPLISHHMENTS S
       O
       Office off Audit
Congresss establish hed the OIGG to provide
                                          e independe  ent oversight of the RRRB. Withinn the
OIG, the
       e mission off OA is to promote
                               p        ecoonomy, efficiency, and d effectiveness in the
administtration of th
                    he RRB’s prrograms an nd operation ns; and to detect
                                                                  d       and prevent fraud,
waste, and
       a abuse. Through th      he Inspecto
                                          or General, OA keeps Board Mem     mbers and the
                                                                                         t
Congresss informed  d of current and potenttial problem
                                                      ms and deficciencies in the RRB’s
operatio
       ons. OA als  so tracks the agency’ss progress towards
                                                      t        corrrective action.

Brief sum
        mmaries off all audits completed
                               c         d
                                         during              al reporting period follo
                                                this semiannua                       ow.

       Fiscal Ye
       F        ear 2010
                       0 Evaluaation of Informa
                                        I      tion Sec
                                                      curity att
       th
        he Railrroad Rettirementt Board
OA’s repport entitledd Fiscal Yeaar 2010 Evvaluation of Information
                                                                  n Security at
                                                                             a the Railro oad
Retirement Board was  w publish hed on Novvember 5, 2010.
                                                       2      The objective
                                                                  o         off this evalua
                                                                                          ation
was to fu
        ulfill the req
                     quirements of the Fede eral Informaation Securrity Manage
                                                                             ement Act of o
2002 (FISMA). FIS    SMA manda  ates that aggencies devvelop, docuument, and implement an
agency wide
        w       inform
                     mation secuurity program
                                            m and establishes min nimum requ uirements fo or
the mannagement of   o informatio
                                on security.

The RRB  B has made  e significan
                                nt progress in impleme  enting an information security
                                                                               s
programm that meets  s the requirrements of FISMA; yett a fully effeective progrram has noot
been acchieved. Fo  or example,, the RRB has
                                           h taken action
                                                        a      to add
                                                                    dress their significant
deficienccy in accesss controls; but a signifficant deficiency remaains in intern
                                                                                nal control over
the certification and
                    d accreditattion review process off contractorr deliverable es.

During FY
       F 2010, OA observed   d that: (1) th
                                          he RRB’s program
                                                    p         forr ensuring agency
                                                                            a      servvers
comply with
       w require ed configuraation settings is not fu
                                                    ully effective
                                                                 e and (2) the agency did
                                                                                      d
not complete external reports of all Categgory 1 secu
                                                    urity incidennts.

The RRB  B continues
                   s to addresss open auddit recomme
                                                   endations pertaining
                                                             p          to
                                                                         o previouslyy
identified
         d weaknessses in the following
                              f         arreas:

       •   security plans;
                    p
       •   informatio
                    on security and privacyy training;
       •   periodic te
                     esting and evaluation;;
       •   an effectiv
                     ve remediaal action pro
                                           ocess;


    Office of Inspec
                   ctor Generral for the Railroad
                                         R        R
                                                  Retirement Board │ P a g e 4
            Semiiannua
                     al Repo
                           ort to th
                                   he Congress                                     October 1,, 2010 •
                                                                                   March 31, 2011




       •   continuity
                    y of operatio
                                ons;
       •   access coontrols;
       •   the inventtory of systems;
       •   risk asses
                    ssment; and  d
       •   privacy.

An abstrract summaary of this audit
                              a     report is posted in
                                                      n the libraryy section off OIG’s web
                                                                                         bsite
at www.rrb.gov/oig. The full reeport includ
                                          des informaation proteccted from diisclosure annd
has been designateed for limite
                              ed distributiion pursuan
                                                     nt to 5 U.S.C. § 552.

       O
       Opinion on the Financia
                      F      al Statem
                                     ments

During this reportin
                   ng period, OAO completed its annu     ual audit of the RRB’s comparativve
financiall statementts for the fisscal years ended
                                             e       Septtember 30, 2010 and 2009.2       The OIG
offered an
        a unqualiffied opinion on the fina   ancial statements, con  ncluding thaat the financcial
statements, including accomp    panying note es, presentted fairly, in
                                                                     n all materiaal respects,, in
conformmity with U.S
                   S. generallyy accepted accounting     g principles,, the financial position of
the RRBB, its consolidated net cost of ope   erations and d changes in net posittion, and
combine ed budgetarry resource   es as of andd for the fisccal years ended Septe  ember 30, 2010
                                                                                              2
and 20009 and the financial
                    f         condition of thhe Railroad d Retiremen  nt program as of January
1, 2010, 2009, 2008, 2007, an     nd 2006.

       R
       Report on
              o Intern
                     nal Conttrol

In planning and performing the   e audit of th
                                             he agency’ss financial statements
                                                                    s            , OA
considerred the RRB’s internal control ovver financiall reporting and
                                                                    a complia   ance. OA
considerred internall control to determine its proceduures for aud diting the fin
                                                                                nancial
statements and to comply
                    c        with
                                h Office of Manageme
                                             M        ent and Bud  dget (OMB)) audit
guidance, and not tot express an opinion on internall control. OA O reported   d the followiing:

   •   With respect to previou
       W                     usly reporteed control deficiencies,, the RRB has
                                                                           h made
       progress strengtheningg its informa
                                         ation securiity program
                                                               m but this efffort is not yet
                                                                                         y
       complete annd remains an area of material we  eakness.

   •   The agency has correccted the pre
       T                               eviously cite
                                                   ed material weakness over financcial
       re
        eporting by demonstra
                            ating improvved controls in this are
                                                               ea.

   •   The previously reported
       T                      d material weakness
                                         w         f non-inte
                                                   for        egrated subsystems
       continues to
                  o exist beca
                             ause agencyy efforts are
                                                    e not yet co
                                                               omplete.




    Office of Inspec
                   ctor Generral for the Railroad
                                         R        R
                                                  Retirement Board │ P a g e 5
           Semiiannua
                    al Repo
                          ort to th
                                  he Congress                                      October 1,, 2010 •
                                                                                   March 31, 2011




       R
       Report on
              o Comp
                   pliance with
                           w    Law
                                  ws and Regulati
                                         R      ions

The OA’’s audit of the RRB’s financial
                               f        sta
                                          atements inncluded testts of compliance with
selected
       d provisionss of laws an
                              nd regulatio            ng laws govverning the use of
                                          ons, includin
budget authority,
       a          and other law ws and reg
                                         gulations thaat could have a direct and materiial
impact on
       o the RRB  B’s basic financial state
                                          ements.

The OA’’s tests of compliance
                   c             with selectted provisio
                                                       ons of laws and regulaations
disclose
       ed no instannces of non-compliancce that are reportable
                                                       r          u
                                                                  under  U.S. generally
accepted governme   ent auditing
                               g standardss or OMB guidance. However,
                                                                 H          th
                                                                             he objective
                                                                                        e
of the au
        udit was noot to provide
                               e an opinion n on overall compliancce with lawss and
regulatio
        ons and theey did not express
                               e        an opinion.
                                            o

       Managem
       M       ment and Perforrmance Challen
                                           nges Fac
                                                  cing the
                                                         e
       R
       Railroad
              d Retirem
                      ment Board
OA’s Ma  anagementt and Perforrmance Cha   allenges Fa
                                                     acing the Railroad
                                                                R        Rettirement Bo
                                                                                      oard
is publisshed in RRBB’s annual Performanc
                               P          ce and Acccountability Report. Th his stateme
                                                                                      ent is
prepared  d pursuant to the Reports Consoolidation Actt of 2000 an
                                                                 nd the requ
                                                                           uirements of
                                                                                      o
OMB Circular A-13  36. This Cirrcular requires OIGs to
                                                     o identify th
                                                                 he most serrious
manage  ement challeenges facin
                              ng their parent agencyy and to brieefly assess the agencyy’s
progresss in addressing those challengess.

The follo
        owing sectio on summarrizes each manageme
                                         m      ent and perfformance challenge
                                                                     c
discusseed in this sttatement.

Providin
       ng Oversig
                ght of Invested Assetts of the Railroad
                                               R        Re
                                                         etirement Act
                                                                   A Program

The Railroad Retire  ement and Survivor’s Improveme     ent Act of 20001 (RRSIAA) created the
                                                                                            t
Nationall Railroad Retirement
                    R             Investmentt Trust (NRRRIT), indep pendent of the
                                                                               t RRB, to   o
manage e and investt railroad re etirement asssets in a diversified
                                                        d           in
                                                                     nvestment portfolio in the
same manner as th    hose of privvate sector retirement plans. Alth hough, the RRB
                                                                               R     maintains
a reservve to pay be enefits as th
                                 hey come due,
                                            d     approxximately 80% % of the ag
                                                                               gency’s totaal
assets, $23.8
         $     billion, were enttrusted to th
                                            he NRRIT at a the end of o FY 2010..

Subsequ uent to the enactment of legislatio   on and crea ation of the
                                                                     e NRRIT, an   n agreemen nt
was reached on a Memorandu
                     M           um of Unde  erstanding (MOU)
                                                          (       calliing for the NRRIT
                                                                                   N      to
provide additional financial
                    f          rep
                                 ports to thee RRB and other entitie  es on a mo  onthly basis.
This inte
        eragency MOU
                   M      is curre
                                 ently being revised to require add  ditional finaancial
informattion for the annual aud  dit of the NR
                                             RRIT financcial stateme ents. Howe   ever, we
believe that
        t     an annnual financiaal statemen nt audit is not
                                                         n adequatte to protecct the Railro  oad



    Office of Inspec
                   ctor Generral for the Railroad
                                         R        R
                                                  Retirement Board │ P a g e 6
           Semiiannua
                    al Repo
                          ort to th
                                  he Congress                                      October 1,, 2010 •
                                                                                   March 31, 2011




Retirement program
                 m and a mo
                          ore active oversight
                                     o         role is warran
                                                            nted which would inclu
                                                                                 ude
       ance audits
performa         s.

Disability Program
                 m Integrity

Each yeear the RRBB sends Dissability Rem minder Noticces to disab
                                                                 bled annuitants under
age 65. Due to the e substantia
                              al amount ofo non-reporting of worrk/earnings by disabilitty
annuitan
       nts in the pa
                   ast, the OIG
                              G believes that
                                           t  the “reminder” no otice does not
                                                                           n go far
enough to prevent non-eligiblee disability annuitants from receivving benefitts.

Previoussly, we reco  ommended a number of oversigh      ht improvem  ment includiing amending
the curreent disabilitty reminderr notice proccess to allo
                                                         ow the RRB   B to annually assess
benefit eligibility.
        e            In
                      n responsee to our concerns, the RRB’s three-member Board direccted
agency officials to establish
                      e        a working grroup to prop  pose revisio ons to agen ncy processses,
forms, procedures,
       p               or systemss. The RRB  B’s Disability Working Group iden    ntified
opportunnities to streengthen pro ogram integgrity in the disability program by building on
existing processes and develo    oping new initiatives;
                                             i           h
                                                         however,    th
                                                                      hey did not endorse the
impleme entation of the
                      t OIG’s re  ecommend  dation for a universal re  eporting req
                                                                                  quirement.
We stan nd by our orriginal recommendatio   on for a univversal reporting requirrement.

Railroad
       d Medicare
                e Program Integrity

In order to establishh an effective partnersship in the fight
                                                         f    againsst Medicaree fraud, the
RRB is challenged
         c            to ensure that
                                 t    the Railroad Mediicare progra am data is compatible   e
                                                    st
with the fraud preve ention technology of th he 21 century. As th  he Federal governmen
                                                                               g             t
moves toward real--time data review,
                                 r       the RRB should initiate an open diallogue with
CMS to overcome potential da     ata compattibility issue
                                                        es that may preclude fu ull participa
                                                                                            ation
in real-time analysis fraud pre evention tecchnology. This
                                                        T     new te
                                                                   echnology brings
                                                                               b       greatter
transparrency to thee Medicare program and would be a vast im      mprovementt of the currrent
system of o after-the-fact analyssis. We alsso recomme   end that the
                                                                    e Railroad Medicare
                                                                                M
Part B carrier
        c       work with the RRB and CM    MS to resolvve data defficiencies id
                                                                               dentified by our
Septemb  ber 30, 20110 audit enttitled Railro
                                            oad Medicarre Servicess Billed withh Dates of
Service after the Be eneficiariess’ Dates of Death.

       nal details re
Addition            egarding ou
                              ur commitm ment to Railroad Mediccare progra
                                                                         am integrity are
discusse
       ed on pages 23 throug  gh 25 of thiss report.

Informa
      ation Techn
                nology Sec
                         curity

The OIG G evaluatedd informatio
                              on security pursuant
                                          p          to
                                                      o the provisions of FISMA and
conclude ed that the RRB has not
                              n yet achieved an efffective FISM   MA-complia ant securityy
programm. Although  h agency managers arre working to  t strengtheen controls, managem ment
action in
        n response to internal control ove
                                         er certificatio
                                                       on and acccreditation had
                                                                             h either not
                                                                                        n


    Office of Inspec
                   ctor Generral for the Railroad
                                         R        R
                                                  Retirement Board │ P a g e 7
           Semiiannua
                    al Repo
                          ort to th
                                  he Congress                                      October 1,, 2010 •
                                                                                   March 31, 2011




been completed as  s of the end
                              d of the currrent reportin
                                                       ng period, or
                                                                  o had not been
                                                                              b     in place
long enoough to perrmit evaluattion. Once completed, the certificcation and accreditatio  on
process will help to
                   o ensure thaat the RRB complies with
                                                      w FISMA    A requiremeents. Additio onal
details regarding th
                   his issue are
                               e discussed d in Append dix D, Significant Mattters.

Financial Accountting and Reporting
                          R

                d that RRB has correccted this pre
OA has determined                                eviously rep
                                                            ported mate
                                                                      erial weakness.

Internall Control Over
                  O    Non-In
                            ntegrated Subsystem
                                      S       ms – Financial Reporrting

The RRB B’s financia al reporting control stru
                                             ucture is no
                                                        ot comprehe   ensive with
                                                                                h respect to the
reconciliiation of the
                     e general leedger to non-integrated sub-syste   ems. The OIGO previou  usly
reported
       d this issue as a result of its auditts of the agency’s financial statem ments
performe ed during FYs
                     F 2000, 2001,
                                 2      2008,, and 2009.. During the fourth quarter of
FY 20100, the agenc   cy created an inventorry of the vaarious non-integrated systems
                                                                                 s        tha
                                                                                            at
support financial ac ccounting. Although th  his shows that
                                                         t   progresss is being made to
address this material weaknesss, the agency has no      ot yet implem mented a comprehens
                                                                                c           sive
reconciliiation proceess with adequate sep  paration of duties.
                                                         d       RRRB managerrs are workking
to addre
       ess this wea  akness. Ad  dditional details regard
                                                        ding this isssue are disccussed in
Appendiix D, Significant Matte  ers.

Preventting and De
                 etecting Im
                           mproper Pa
                                    ayments

During FY
        F 2010, th he RRB reco   ognized ne  early $54 million in new
                                                                    w overpaym ments in its
retiremeent, survivorr, and disabbility benefit operations of which nearly 70% % were
associatted with rouutine eventss such as th  he death off an annuita
                                                                    ant or the administrativve
coordinaation of bennefits with th
                                 he Social Security
                                             S        Admministration
                                                                    n. The Improper
Paymen  nts Elimination and Re  ecovery Act of 2010 foccuses a sig  gnificant am
                                                                               mount of
attention
        n on improp per paymen  nts and as thet agency moves forw   ward, they must recog   gnize
the challenges pos sed by this new
                                 n     legislation and co
                                                        ontinue to id
                                                                    dentify oppoortunities fo
                                                                                            or
improvement.

       Fiscal Ye
       F       ear 2010
                      0 Financ
                             cial State
                                      ement Audit
                                            A     Letter to
       M
       Managem ment
On Janu uary 25, 2011, OA issu    ued the Fiscal Year 20 010 Financiial Statemeent Audit Le
                                                                                          etter
to Manaagement. This
                   T     letter trransmits OA A’s memora andum on innternal conntrol
commun  nicating cerrtain interna al control matters
                                             m       that came to their attention
                                                                                n during the
                                                                                           e
financiall statementt audit.




    Office of Inspec
                   ctor Generral for the Railroad
                                         R        R
                                                  Retirement Board │ P a g e 8
           Semiiannua
                    al Repo
                          ort to th
                                  he Congress                                      October 1,, 2010 •
                                                                                   March 31, 2011




In addition to the previously discussed material
                                           m          weaaknesses, OAO noted ce   ertain otherr
matters involving th he RRB’s in nternal conttrol structurre and its operation. Although
                                                                                 A          these
matters do not rise to the leve el of a material weakne  ess or significant deficciency, eitheer
individua
        ally or in the
                     e aggregate e, they reprresent area as in which control wea  aknesses
increasee the risk off error or mishandling:

   •   C
       Controls ove
                  er report pre
                              eparation are
                                        a not fullyy effective.

   •   Controls ove
       C          er the Fedeeral Financia
                                         al Systemss used by th
                                                              he RRB to support
                                                                        s       gen
                                                                                  neral
       le
        edger accou
                  unting for proprietary
                             p           a budgettary transacctions are not
                                         and                            n fully
       effective.

   •   Some RRB general led
       S                  dger accoun
                                    nts are not in agreeme
                                                         ent with the
                                                                    e U.S. Stand
                                                                               dard
       G
       General Led
                 dger.

RRB Ma anagement has agreed
                          d to take acction on ourr recommendations re
                                                                     elating to the
above findings.

       Review of
       R      o the Ra
                     ailroad Retirem
                             R     ment Boa
                                          ard’s Au
                                                 udit and
       C
       Compliance Divi
                    vision
       ewed the RRB’s
OA revie        R       Audit and Comp  pliance Divission (ACD)) in the Bure eau of Fiscaal
Operatio
       ons (BFO). The ACD conducts external
                                        e        aud dits of railro
                                                                  oad employers to ensu ure
complian
       nce under the
                  t RRA an  nd the RUIA A, and veriffies the acccuracy and timeliness
                                                                              t          o
                                                                                         of
reported
       d compensaation and coontributionss. The purp poses of the  e review we
                                                                             ere to
determin
       ne if ACD’s audits werre conducteed in compliance with Generally Accepted
                                                                             A
Governmment Auditing Standarrds (GAGAS   S), and if audit resultss were factuually accura
                                                                                        ate
and supported by competent
                 c           e
                             evidence.

      orted the following keyy findings:
OA repo

   •   A
       Audits were not conduccted in acco
                                        ordance witth GAGAS..

   •   A
       Audit reports
                   s included an
                              a unmodiffied GAGAS
                                                S statemen
                                                         nt.

   •   A
       Audit results
                   s were not fully
                              f     supporrted.

   •   OA identified
       O           d an error related
                              r       to th
                                          he verification of emplo
                                                                 oyer inform
                                                                           mation with the
                                                                                       t
       In
        nternal Rev
                  venue Serviice which could
                                         c     impacct reported creditable
                                                                 c          c
                                                                            compensati ion
       amounts by an estimated $1.7 milllion.

   •   A
       Audit timelin
                   ness and follow-up nee
                                        ed improvement.


    Office of Inspec
                   ctor Generral for the Railroad
                                         R        R
                                                  Retirement Board │ P a g e 9
           Semiiannua
                    al Repo
                          ort to th
                                  he Congress                                     October 1,, 2010 •
                                                                                  March 31, 2011




To impro
       ove operations, the OIIG recomm
                                     mended thatt BFO:

   •   Establish co
       E          omprehensive written policies
                                         p      and
                                                  d procedure
                                                            es to ensure
                                                                       e audits are
                                                                                  e
       conducted inn compliancce with required GAGA
                                                  AS.

   •   Remove the
       R           e GAGAS sttatement fro
                                        om ACD’s audit reports until theyy can ensurre
       th
        hat all required GAGA
                            AS have beeen met.

   •   Require ACD
       R            D managem
                            ment and audit staff to
                                                  o complete a comprehe
                                                                      ensive GAG
                                                                               GAS
       trraining courrse.

   •   In
        nstitute a sy
                    ystem for quality contrrol which includes proccedures to verify that the
                                                                                         t
       audit work meets
                   m     the reequirements of GAGA    AS.

   •   Q
       Quantify the
                  e differences in credita
                                         able compen
                                                   nsation identified durin
                                                                          ng the audit.

   •   Im
        mplement effective
                 e         ma
                            anagement controls including a control
                                                           c       envirronment wh
                                                                                 hich
       promotes co
                 onscientiouss managem
                                     ment.

BFO agrreed to take
                  e corrective
                             e action for all 17 of ou
                                                     ur recomme
                                                              endations.

       Concern
       C      ns Relate
                      ed to the
                              e Railroa
                                      ad Retirrement Board’s
                                                     B
       A
       Audit an
              nd Comppliance Division
                              D      n’s Emplloyer Au
                                                    udit
       R
       Reports
Due to the above described
                    d           deficiencies identified in
                                                         n ACD’s au udit and rep
                                                                               porting proccess,
the OIG initiated a subsequen   nt review to identify additional are
                                                                   eas of conce ern related to
ACD’s employer
        e          auudit reports. We did not make forrmal recom  mmendations based up    pon
this revie
         ew because   e we had reecently madde widespread recommendationss for correcctive
action in
        n our February 1, 2011   1 audit repo
                                            ort entitled Review
                                                         R       of the
                                                                    t Railroad d Retiremen  nt
Board’s Audit and Compliance
                      C          e Division. However, we w wanted to highlight additionall
OIG con ncerns for consideratio
                    c           on during ACD’s
                                           A       impleementation of correctivve action annd
revision of its policiies and pro
                                ocedures.

   •   ACD’s employer audit reports
       A                       r       do not
                                          n clearly answer one  e of their prrimary auditt
       objectives off determinin
                               ng the accu
                                         uracy of cre
                                                    editable serrvice and coompensatio on
       re
        eports filed under the RRA.

   •   ACD uses materiality
       A          m           th
                               hresholds inn their emp
                                                     ployer audit reports witthout defining
       th
        hese levels, or in somee cases, infforming the
                                                     e reader of their
                                                                 t     use.


    Office of Inspec
                   ctor Generral for the Railroad
                                         R        R
                                                  Retirement Board │ P a g e 10
                     Semiiannua
                              al Repo
                                    ort to th
                                            he Congress                                        October 1,, 2010 •
                                                                                               March 31, 2011




      •      ACD did nott complete their
             A                      t    emplooyer audit re
                                                          eports in a timely manner and didd not
             always selec                      eview based upon the timing of th
                        ct the best years for re                                heir audit work.
                                                                                           w

             M
             Managem
                   ment De
                         ecisions and Imp
                                        plementtation

The OIGG tracks the
                  e implementation of itss recommenndations to RRB mana  agement. OMB
                                                                                  O
Circular No. A-50 (Revised) and the Insp pector Gene
                                                   eral Act Am
                                                             mendments of 1988 reqquire
the repo
       orting of ma
                  anagement decisions anda corrective actions for all audit
recommmendations.

                                                          Managem
                                                                ment Decis
                                                                         sions
                      Requirin
                             ng Manage
                                     ement Decission on Octtober 1, 201
                                                                      10                   0
                      Pending
                            g Managem
                                    ment Decisio
                                               on for New
                                                                                           0
                      Recommmendationss
                      Manage
                           ement Decision on Pre
                                               evious Reco
                                                         ommendatiions                     0
                      Recommmendationss Pending Managemen
                                                M       nt Decision
                                                                  n on
                                                                                           0
                      March 31,
                            3 2011



                                                            Corre
                                                                ective Actio
                                                                           on
                      Recomm
                           mendationss Requiring Action on October 1, 2010            153 2
                      Recomm
                           mendationss Issued Du
                                               uring Reporrting Period
                                                                     d                 2
                                                                                       22
                      Corrective Actions Completed
                                                 d During Re
                                                           eporting Pe
                                                                     eriod             3
                                                                                       32
                      Recomm
                           mendationss Rejected During Rep
                                                         porting Period                    0
                      Final Ac
                             ctions Pend
                                       ding on Marrch 31, 2011                        1
                                                                                      143




                                                       
2
    Reflects an adjustment to a recom
                                    mmendation ad
                                                ddressed to the Chief Fina
                                                                         ancial Officer.



    Office of Inspec
                   ctor Generral for the Railroad
                                         R        R
                                                  Retirement Board │ P a g e 11
                     Semiiannua
                              al Repo
                                    ort to th
                                            he Congress                                           October 1,, 2010 •
                                                                                                  March 31, 2011




             O
             Office off Investig
                              igations

OI's prim
        mary objecttive is to ide
                                entify, invesstigate, and
                                                        d refer for prosecution or monetarry
recoveryy action cas ses of wastte, fraud, annd abuse inn the RRB’ss programs. OI also se     eeks
to preveent and dete er program fraud by re eporting sysstemic weaknesses in the RRB’s
operatioons and pro ocesses as identified th hrough inveestigative work.
                                                                    w      In ord
                                                                                der to maxim  mize
the impaact of its res
                     sources, OI continues to pursue cooperative     e investigattive activitie
                                                                                              es in
coordinaation with other
                    o     Inspecctors Generral and law enforceme    ent agencies, such as the
Federal Bureau of Investigatio  on, the U.S. Secret Se  ervice, and the Postal Inspection
Service.

             In
              nvestiga
                     ative Ac
                            ccomplis     s3
                                   shments

                                                                  October 1, 2010 –
                              Acttion 
                                                                   March 31
                                                                          1, 2011 
                              Refferrals to the Departme
                                                       ent of
                                                                             43
                              Jus
                                stice
                              Indiictments/Infformations                     52
                              Arre
                                 ests                                         6
                              Con
                                nvictions                                    38
                              Civil Complain
                                           nts                                2
                              Civil Judgments                                11
                              Res
                                stitution and
                                            d Fines                   $97.4 Million
                                                                            M
                              Civil Damagess and Penalties              $424,5
                                                                             594
                                                       4
                              Inve
                                 estigative Recoveries
                                            R                           $318,1
                                                                             152
                              Com
                                mmunity Se
                                         ervice Hourrs                      520
                                                                              0




                                                       
3
 The total amount of fin
                       nancial accom
                                   mplishments in n this table refllect fraud amo ounts related to
                                                                                                t programs
administerred exclusively by the RRB and fraud am mounts from otther Federal programs
                                                                                 p           such
                                                                                                h as Medicare
                                                                                                            e or
Social Seccurity which were
                       w    included in the disposittion resulting from
                                                                   f     the invesstigation.
4
 RRB ben  nefits that are
                        e overpaid due to fraud and d can be reco
                                                                ouped through
                                                                            h RRB admin
                                                                                      nistrative reco
                                                                                                    overy
action are
         e expressed as a investigativve recoveries..



    Office of Inspec
                   ctor Generral for the Railroad
                                         R        R
                                                  Retirement Board │ P a g e 12
                     Semiiannua
                              al Repo
                                    ort to th
                                            he Congress                                                            October 1,, 2010 •
                                                                                                                   March 31, 2011




             C
             Current Caseloa
                           ad

During this semiannual reporting period, OI reviewe
                                                  ed 250 mattters and op
                                                                       pened 188 new
                                                                                 n
cases.

                                                          I
                                                          Investigative Caseloa
                                                                              ad Data
                 Investigatiive Cases Open
                                      O    as of October 1,, 2010                                              4
                                                                                                               405
                 Investigatiive Cases Opened
                                      O      Du
                                              uring Reporrting Period                                          1
                                                                                                               188
                 Investigatiive Cases Closed
                                      C      Durring Reportiing Period                                         1
                                                                                                               135
                 Investigatiive Cases Open
                                      O    as of March 31, 2011                                                4
                                                                                                               458
 
OI’s currrent caselo
                   oad totals 45
                               58 matters,, representiing approximately $377 million 5 in
potential fraud. The chart beloow reflects the distribu
                                                      ution of OI cases
                                                                  c     and potential fraaud
losses by
       b RRB majjor program   m area.

                           82 Cases                               48 Cases
                               Million
                         $29.5 M                                 $1.3 Million
                                                                                              Other
                                                                                              Disability
                                                                                              Unemp
                                                                                                  ployment & Sicckness
                                                                                              Retirem
                                                                                                    ment
      49 Caases
     $1.0 Million                                                                             Medicaare


                                                                                     Cases
                                                                                 159 C
                                                                                $3.6 M
                                                                                     Millon


                      120 Casess
                     $1.4 Millio
                               on



Other casse type is an amalgam
                       a        of various
                                   v       types of cases invoolving matterss such as miscconduct by RRB
                                                                                                     R
employeees, threats agaainst agency employees, false
                                                f     reporting
                                                              g by railroad employers,
                                                                             e          an
                                                                                         nd others.
                                                       
5
  This refle
           ects potential fraud amountts related to prrograms admiinistered exclu
                                                                                usively by the RRB and pottential
fraud amo ounts from other Federal pro ograms such as Medicare oro Social Secu  urity which havve been identtified
during OI’ss joint investig
                          gative work.



    Office of Inspec
                   ctor Generral for the Railroad
                                         R        R
                                                  Retirement Board │ P a g e 13
           Semiiannua
                    al Repo
                          ort to th
                                  he Congress                                      October 1,, 2010 •
                                                                                   March 31, 2011




       Representative Investig
       R              I      gations
       O
       October 1, 2010 – March
                             h 31, 201
                                     11

       D
       Disability
                y Investtigations
                                s

OI cond ducts fraud investigatio
                               ons relating
                                          g to the RRB's disabilitty program. Railroad
workerss who are awarded
                  a         a disability
                               d          nnuity by the RRB are subject to work
                                         an
restrictions and ea
                  arnings limittations. Dissability ben
                                                      nefit fraud often
                                                                  o     involve
                                                                              es
sophisticated sche emes to hidde disqualifyying work activities
                                                      a         fro
                                                                  om the RRB B.

During this reportin  ng period, OI
                                 O obtainedd eight convvictions and d six civil ju
                                                                                 udgments inn
disabilitty fraud cas ses. The deefendants received,
                                           r           in
                                                        n the aggreggate, sente  ences totalin
                                                                                             ng
2 month  hs of jail, 15
                      5 ½ years of
                                 o probation
                                           n, 280 hourrs of commu   unity servicce, and were
orderedd to pay app   proximatelyy $742,000 in restitutio
                                                        on, fines, an
                                                                    nd civil
damage   es/penalties s.

Descrip
      ptions of rep
                  presentative
                             e cases com
                                       mpleted du
                                                uring this reporting perriod follow.

       A
       Annuitant
               t Failed to
                         o Accurately Repo
                                         ort Earnin
                                                  ngs to the RRB
OI Speccial Agents investigated an RRB disability
                                            d        annnuitant whho failed to accurately
                                                                                a
report hiis income and
                     a excess earnings frrom his job as an inve   estigator/litig
                                                                                gant recruitter
for two law firms. The
                     T annuita  ant actively hid excesssive earninggs from the RRB by
structuring his salary to receivve compenssation well beyond the  e allowable amount in the
form of cars;
          c     health
                     h and car in
                                nsurance prremiums; exxtensive en ntertainmen  nt and busin ness
related expenses;
          e          and
                     a cash re  eimburseme  ents instead of salary.. The annu  uitant’s failu
                                                                                            ure
to reportt his income e to the RR
                                RB caused him
                                            h to fraud dulently recceive over $278,000
                                                                                $          in
                                                                                            n
disabilityy payments s.

This casse was referred to the United States Attorne
                                                   ey’s Office for
                                                               f the Soutthern Districct of
Ohio and they enteered into a settlement
                              s          agreement with the an nnuitant and
                                                                          d his wife fo
                                                                                      or
$200,0000.

       Annuitantt Reporte
       A                ed Earnings underr his Brotther’s Name and
       S
       Social Sec
                curity Nu
                        umber
Based upon
        u       a referrral from a state
                                   s     agenccy, OI Speccial Agents investigate
                                                                               ed an RRB
disabilityy annuitant who, in ord der to conceal his inco
                                                        ome from th he RRB, ha ad his earnin ngs
reportedd under his brother’s name and so     ocial security number.. The annu uitant’s failu
                                                                                            ure
to reportt his income  e to the RRRB caused him
                                              h to fraud dulently recceive more than $118,000
in disabiility paymen nts.


    Office of Inspec
                   ctor Generral for the Railroad
                                         R        R
                                                  Retirement Board │ P a g e 14
           Semiiannua
                    al Repo
                          ort to th
                                  he Congress                                      October 1,, 2010 •
                                                                                   March 31, 2011




This casse was referred to the United States Attorne  ey’s Office for
                                                                  f the Wesstern Districct of
Virginia. The Unite ed States Attorney’s
                              A          O
                                         Office filed an
                                                      a information against the annuita    ant
for Theftt of Govern
                   nment Fund ds. The ann nuitant pledd guilty and was sentenced to
60 days in jail, 6 months of ho
                              ome confine ement, 2 ye ears of probbation, and full restitutiion.

       D
       Disability Annuitan
                         nt Fails to
                                   o Report Excess Earnings
                                                   E
Special Agents inve
                  estigated an
                            a RRB disa   ability annu
                                                    uitant who had
                                                                 h reported   d his self-
employmment and owwnership of a construcction busine  ess to the RRB
                                                                 R     but faiiled to repoort
his exce
       ess earnings. Their invvestigation revealed thhat during the
                                                                 t period of o January
2006 thrrough Dece
                 ember 2007  7 the annuittant earned d wages in excess
                                                                  e       of th
                                                                              he allowablle
amount establishedd by the RRRA. The an  nnuitant’s fa
                                                     ailure to rep
                                                                 port his excess earning   gs to
the RRBB caused him to frauduulently rece
                                        eive more th han $55,000 in disability payments.

This casse was referred to the United States Attorne   ey’s Office for
                                                                     f the Wesstern Districct of
Washing  gton. The United
                     U       States Attorneyy’s Office filled an inforrmation aga
                                                                                ainst the
annuitan nt for Theft of Governmment Fundss. He pled guilty and was   w senten  nced to 3 ye
                                                                                           ears
of proba ation, 4 monnths of hom
                               me detention n, 200 hourrs of community servicce, and full
restitutio
         on.

       U
       Unemplo
             oyment - Sickne
                           ess Insu
                                  urance In
                                          nvestiga
                                                 ations

Unemplo   oyment Inssurance (UI) - Sicknesss Insurance e (SI) beneffit fraud invvolves
individuaals claiming
                    g and receivving UI or SI
                                           S benefits while
                                                        w      workiing and recceiving wages,
in violatiion of Fede
                    eral law, from an emplo oyer. OI reeceives the majority of these case  es
from thee RRB’s Dis sability, Sickness, and Unemployyment Bene     efits Divisionn as a result of
informattion develop ped through h state wag
                                           ge matching  g programss. The RRB    B conducts
compute  er wage ma atches with various staates to idenntify claiman
                                                                   nts who ma  ay have
collectedd RRB adm  ministered UI
                                U or SI bennefits on the
                                                       e same dayys they rece   eived wagess
from a private
        p        empployer.

During this reportin
                   ng period, OI
                              O obtained four convicctions and four
                                                                 f            dgments for UI
                                                                      civil jud
and SI frraud casess. Defendannts in these
                                         e cases recceived, in th
                                                                he aggregatte, 7 ½ years of
probatio
       on and were e ordered to
                              o pay almosst $75,000 in restitutio
                                                                on, fines, an nd civil
damage es/penaltiess.

The follo
        owing are examples
                  e        off UI and SI cases com
                                                 mpleted duriing this reporting perio
                                                                                    od.

       J
       Judgment
              t Entered
                      d Againstt UI Claim
                                        mant
OI initiatted an investigation off an RRB UI claimant based
                                                      b      uponn an agencyy referral. OI’s
subsequ  uent investigation deteermined tha
                                          at during the
                                                      e period of July 2006 through
                                                                            t


    Office of Inspec
                   ctor Generral for the Railroad
                                         R        R
                                                  Retirement Board │ P a g e 15
           Semiiannua
                    al Repo
                          ort to th
                                  he Congress                                    October 1,, 2010 •
                                                                                 March 31, 2011




Decemb ber 2006, thhe claimant applied forr RRB UI be   enefits on the
                                                                   t same da    ays he wass
working and being paid by a private
                                p       empployer. He submitted
                                                        s          a total of 10
                                                                               0 false claim
                                                                                           ms
when appplying for benefits
                    b                                              mployment. His actions
                              by intentionally not reporrting his em
resulted in the theftt of more th
                                han $6,000 in UI beneffits.

This casse was referred to the United States Attorne   ey’s Office for
                                                                   f the Distrrict of New
Jersey. The United d States Atttorney’s Offfice filed a civil complaaint for viola
                                                                                 ations of th
                                                                                            he
False Cllaims Act. Subsequen  ntly, the Disstrict Court entered a judgment fo   or over $25,000
against the
         t claimannt.

       S Claimant Fails to
       SI               t Reportt Work an
                                        nd Earnin
                                                ngs to the
                                                         e RRB
OI initiatted an investigation off an RRB SI claimant based
                                                       b       uponn an agencyy referral. OI’s
                                                                                          O
subsequ  uent investigation deteermined thaat during the
                                                       e period of Septemberr 2006 throu  ugh
Februaryy 2007, the e claimant applied
                                a       for RRB
                                            R    SI bennefits on the
                                                                   e same dayys he was
working for a privatte employer. The claim  mant failed to report his
                                                                  h work and d earnings to
the RRB B and fraudulently rece  eived more than $5,00 00 in SI ben
                                                                  nefits.

This casse was referred to the United States Attorne   ey’s Office for
                                                                   f the Wesstern Districct of
Virginia. The Uniteed States Attorney’s
                               A          O
                                          Office filed an
                                                       a information against the annuita ant
for Theftt of Govern
                   nment Fund  ds. The ann nuitant pledd guilty and was sentenced to one  e
year of probation
        p          and full restiitution.
 
       Retireme
       R       ent-Surv
                      vivor Be
                             enefits and Reprresentattive Pay
                                                            yee
       In
        nvestiga
               ations
The RR RA providess retirementt-survivor benefits
                                         b        for qualified ra
                                                                 ailroad workkers and the
                                                                                        eir
familiess. RRB retirement-surrvivor beneffit fraud typ
                                                     pically involvves:

   •   an individual failing to report
                                r      inform
                                            mation to th
                                                       he RRB tha
                                                                at may disqualify the
       annuitant fro
                   om receiving benefits;

   •   in
        nstances off theft and/o
                               or fraudulen
                                          nt cashing of
                                                     o retiremen nt benefit checks by
       someone other than the  e authorizeed RRB ann nuitant; or

   •   an individual designateed to receivee RRB bennefits on behalf of an RRB
                                                                           R   annuita
                                                                                     ant
       frraudulently using the funds
                               f     for their own perrsonal use.

During this reportinng period, OI
                                O obtained  d five convicctions and one civil jud
                                                                                dgment for
these tyypes of frauud cases. The
                                T defendants, in the   e aggregate e, received sentences
totaling 3 ½ years of jail, 16 years
                                y     of proobation, and
                                                       d were orde ered to payy more than
$782,00 00 in restitu
                    ution, fines, and civil damages/pe enalties.


    Office of Inspec
                   ctor Generral for the Railroad
                                         R        R
                                                  Retirement Board │ P a g e 16
           Semiiannua
                    al Repo
                          ort to th
                                  he Congress                                     October 1,, 2010 •
                                                                                  March 31, 2011




Examplles of cases
                 s completed during this reporting
                                                 g period follo
                                                              ow.

       R
       Representative Pa
                       ayee Misu
                               uses RRB
                                      B Benefits
                                               s
OI initia
        ated an inve
                   estigation against
                               a         an individual who
                                                        w received RRB survvivor benefits to
care forr her disablled brother.. OI’s invesstigation revvealed thatt from Deceember 2007 7
through h June 20099 the subject was not entitled to receive
                                                         r       ben
                                                                   nefits becauuse her broother
was inccarcerated and
                    a not in her
                               h care. Failure
                                           F        to re
                                                        eport her brother’s inca
                                                                               arceration
caused the subjec  ct to fraudullently receivve more tha an $17,0000 in RRB Ch hild Disability
Benefitss payments s to which she
                               s was no    ot entitled.

This case was refe
                 erred to the
                            e United Sta  ates Attorne ey’s Office for the Sou
                                                                             uthern District of
      a. The Unite
Indiana          ed States Attorney’s
                            A            O
                                         Office  filed an
                                                       a indictme ent charging
                                                                             g the sister with
Theft off Governme
                 ent Funds. She pled guilty
                                          g      and was
                                                      w sentencced to 2 years of
probatio
       on and orde
                 ered to payy full restituttion.
 
       A
       Annuitant
               t’s Son Steals Ove
                                er $341,0
                                        000 in RRB
                                                 B Benefitts
 
OI’s inveestigation re
                     evealed tha
                               at an RRB annuitant
                                           a          h passed away in Ju
                                                      had                       uly 1985;
howeverr, RRB continued to de   eposit electtronic fundss into a join
                                                                    nt bank acco ount until
June 2009. Specia   al Agents deetermined that
                                           t     the annnuitant’s soon was the joint
                                                                                 j    ownerr on
the accoount and ha ad used mo ore than $3441,000 in RRB
                                                      R      benefitts for his ow
                                                                                wn persona  al
benefit.

This case was refe erred to the
                              e United Staates Attorneey’s Office for the Wesstern Districct of
Pennsyylvania. The  e United Sttates Attorn
                                          ney’s Office
                                                     e filed an ind
                                                                  dictment ch harging the son
with Theft of Gove ernment Fun nds. He pleed guilty annd was sentenced to 18  1 months in
jail, 3 ye
         ears of sup
                   pervised pro
                              obation, andd ordered too pay full re
                                                                  estitution. Prior
                                                                              P     to
sentenccing the sub bject had made
                              m      paymeents totaling
                                                      g more than $45,000.
 
       In
        ndividuall Fraudullently Rec
                                   ceives Tw
                                           wo RRB Annuities
                                                  A       s

OI invesstigated an individual who
                                w fraudullently applie ed for and received
                                                                    r        wiidow and minor
                                                                                          m
child annnuity beneffits. In 1996
                                6, a state court
                                           c     awarded custodyy of the railrroad workerr’s
minor chhild to an in
                    ndividual oth
                                her than hiss spouse. When
                                                       W      the railroad
                                                                   r        worrker died in
2003, his spouse frraudulently applied forr and receivved both a widow
                                                                    w      and a minor ch hild
annuity based upon   n her false statementss regarding her care off their minoor child. Sinnce
she did not have le egal custodyy of the child, she wass not entitle
                                                                   ed to the mo
                                                                              ore than
$151,0000 in RRB annuity
                    a        benefits she re
                                           eceived.




    Office of Inspec
                   ctor Generral for the Railroad
                                         R        R
                                                  Retirement Board │ P a g e 17
               Semiiannua
                        al Repo
                              ort to th
                                      he Congress                                                        October 1,, 2010 •
                                                                                                         March 31, 2011




    This case was refe erred to thee United Sta ates Attorneey’s Office for the Sou  uthern District of
    New Yoork. The Un   nited Statess Attorney’ss Office crim
                                                            minally prossecuted the  e spouse inn
    U.S. Disstrict Court. The spou use was con  nvicted on two counts of Wire Fra     aud and waas
    sentencced to 24 months
                      m        in jail, 3 years of
                                                o probation n, and full re
                                                                         estitution.

          R
          Railroad
                 d Medica
                        are Inves
                                stigation
                                        ns
During this reportinng period, OIO obtained 20 convictions in Raillroad Mediccare fraud
cases. Defendants    s in these cases
                                 c       receivved, in the aggregate, 88 years ofo jail, 51 ye
                                                                                             ears
of proba
       ation, 240 hours of com    mmunity service, and werew     ordereed to pay more
                                                                                 m     than
$96 milliion in restitution, finess, and civil damages/pe
                                               d           enalties. 6

All of OI’s active Medicare casses are being worked jointly with the Office of Inspecto or
General for the U.S S. Departmeent of Health and Hum
                                                   man Service  es, the Officce of Inspector
General for the Offfice of Perso
                               onnel Mana agement, or
                                                   o other age  encies respo onsible for
investiga
        ating healthh care fraud
                               d. Interagency cooperration is impperative to effective la
                                                                                        aw
enforcemment espec  cially among
                               g agencies responsiblle for investtigating the
                                                                            e complexities
of health
        h care fraudd.

The follo
        owing are examples
                  e        off Railroad Medicare
                                        M        ca
                                                  ases completed during
                                                                      g this reporrting
period.

          Durable Medical
          D       M       E
                          Equipmen
                                 nt Company Owne
                                               er Sentenced for
          H
          Health Ca
                  are Fraud
                          d
 
In our October
       O         1, 2009 through March 31    1, 2010 Sem miannual Report
                                                                    R             e Congresss, we
                                                                             to the
provided d informatio
                    on regarding g the indicttment of a durable
                                                         d        med dical equipment comp pany
owner. On Octobe    er 4, 2010, a United Sttates Districct Court Jud dge for the Southern
District of
         o Texas se entenced him to 21 mo    onths of jail, 3 years off supervised release, and
                                                                                            a
more tha an $574,00 00 in restituttion.

          D
          Doctors Sentenced
                  S       d to 23 Years
                                  Y     in Ja
                                            ail
 
An OI Special Agen                  nt worked cooperative
                                                        c          ely as a mem mber of a multi-agenc
                                                                                          m             cy team
investiga      ating a mas          ssive, long running hea         alth care fra
                                                                                aud scheme. This sch     heme, whicch
operated       d from 1998          8 until June        e 2009, invo
                                                                   olved upcod  ding superfficial injectio
                                                                                                         ons to vario ous
higher paying p             and more involvved injections. Based upon an analysis of th                  heir billing
records, the subjec                cts billed forr an averag       ge of over 100 patientss per day. Subsequen        nt
investiga      ation revea         aled neither subject ever actually performed the billed procedure.   p
                                                       
6
 This tota
         al reflects the full
                         f amount of restitution, fin
                                                    nes, and civil damages/pena
                                                                    d            alties ordered. Since OI’s
Railroad Medicare
         M           fraud
                         d cases are jo
                                      oint investigatio
                                                      ons, the total dollar amountt includes lossses to other he
                                                                                                               ealth
care progrrams.


    Office of Inspec
                   ctor Generral for the Railroad
                                         R        R
                                                  Retirement Board │ P a g e 18
           Semiiannua
                    al Repo
                          ort to th
                                  he Congress                                      October 1,, 2010 •
                                                                                   March 31, 2011




This casse was referred to the United States Attorne    ey’s Office for
                                                                    f the Soutthern Districct of
Texas. The United   d States Attorney’s Offfice indictedd the doctorrs on Conspiracy to
Commit Health Carre Fraud an   nd Health Care
                                         C       Fraud. Both docttors pled gu  uilty and we
                                                                                          ere
sentenced to a com  mbined tota
                              al of 23 yearrs in jail, 6 years
                                                         y     of supervised reeleases, and
restitutio
         on in the am
                    mount of $4
                              43.3 million.. The docto   ors were orrdered to fo
                                                                               orfeit numerrous
parcels of real estaate and morre than $1.55 million in cash.
 
       R
       Railroad Medicare
                M        Providerrs Prosec
                                         cuted
 
OI initiatted this inve
                      estigation pursuant
                                 p        to a referral from
                                                         f    the Offfice of Inspector Geneeral
for the Department
         D            t of Health and
                                  a Human   n Services. The subse   equent jointt investigatiion
revealed d that a medical clinic had frauduulently billedd services performed
                                                                    p            b nurse
                                                                                 by
practitioners as if thhe servicess were perfoormed by doctors. In addition
                                                                     a         to upcoding, they
                                                                                            t
also missused Drug Enforceme      ent Adminisstration registration nu
                                                                    umbers.

This casse was referred to the United States Attorne     ey’s Office for
                                                                     f the Soutthern Districct of
West Virrginia. The e United Sta ates Attorne ey’s Office pursued bo oth civil and
                                                                                 d criminal
prosecutions again  nst the clinicc owners an nd the docttors who we ere involvedd in the
scheme. The Crim    minal Divisio
                                on filed informations ag  gainst the owner
                                                                     o       and two
                                                                                 t    physicians
for violattions of Health Care Fraud.
                                F        All th
                                              hree individ
                                                         duals pled guilty
                                                                     g      and were
                                                                                 w     senten
                                                                                            nced
to a commbined total of more th han 4 yearss in jail, 9 ye
                                                         ears of supe ervised rele
                                                                                 eases, and
restitutio
         on in the am
                    mount of $4 429,000. Th  he Civil Division entereed into Consent
Judgments with the   e clinic own
                                ner and one  e physician for a total of
                                                                     o $550,000  0.
 
       Durable Medical
       D       M       E
                       Equipmen nt Company Owneer and Patient
       R
       Recruiter Sentence
                        ed to 13 Years in Jail
 
Pursuan nt to a referrral from thee Medicare Fraud Strikke Force, OI
                                                                   O initiated this
                                                                                t
investiga
        ation against the owne    er and patie
                                             ent recruiter for a Texa
                                                                    as Durable Medical
Equipme  ent compan  ny. The subsequent jo   oint investig
                                                         gation reveaaled that th
                                                                                he individua
                                                                                           als
had submitted $1.1  1 million in Medicare
                                  M         c
                                            claims  for medically
                                                        m         unnnecessary power
wheelch hairs. They y billed the wheelchairs
                                  w          s and relateed accessoories as lostt or damageed in
hurrican
       nes, even th hough manyy of the Me   edicare beneficiaries had not own   ned a power
wheelch hair during these
                      t      catasstrophes or owned whe  eelchairs which
                                                                   w       were not damage  ed.

This casse was referred to the United States Attorne     ey’s Office for
                                                                      f the Soutthern Districct of
Texas. After a wee   eklong trial for Conspirracy to Com mmit Health h Care Frau ud and Aiding
and Abe etting in Hea alth Care Fraud,
                                F       the owner
                                             o       was found
                                                          f     guiltyy and his co
                                                                                 o-owner/spo ouse
was foun nd not guiltty. Soon affter the trial, the patien
                                                         nt recruiter pled guilty to
                                                                                  t Conspira acy
to Comm mit Health Care
                    C      Fraud and Aiding  g and Abettting in Health Care Fra  aud. The
individua
        als were seentenced to  o a combine  ed total of more
                                                         m     than 13 years in jail,
                                                                                  j   6 yearss of
supervissed releasee, and restitution in the e amount off $553,000.


    Office of Inspec
                   ctor Generral for the Railroad
                                         R        R
                                                  Retirement Board │ P a g e 19
               Semiiannua
                        al Repo
                              ort to th
                                      he Congress                                     October 1,, 2010 •
                                                                                      March 31, 2011




 
          C
          Civil Enfforceme
                         ent Resu
                                ults
    OI may pursue civ  vil actions to
                                    o obtain jud
                                               dicial orderss for the reccovery of fuunds
    frauduleently obtain
                       ned by annu  uitants or cllaimants. These
                                                            T       civil actions
                                                                          a        are
                                                                                     e typically
    broughtt under the provisions of the Falsse Claims Act.A     This sta atute allowss the
    governm ment to reccover up to treble damages as we     ell as $5,5000 to $11,00 00 for each
    false cla
            aim submittted.

    During this semian  nnual reporrting period, a total of 11
                                                            1 civil judg
                                                                       gments werre entered by  b
    U.S. Disstrict Courts for RRB fraud
                                    f      casess totaling more
                                                           m     than $4
                                                                       424,000 in damages and  a
    penaltie
           es. Some of  o these civvil actions are pursued under the Departmen    nt of Justicee’s
    Affirmattive Civil En
                        nforcementt (ACE) program which     h provides an
                                                                       a efficientt means to
    addresss fraud aga ainst the RRRB’s programs. ACE is an effective way to returnr       fraud
                                                                                               d
    losses to
           t the RRB’s trust fund   ds and it alsso creates a deterrentt against futture fraud.




    Office of Inspec
                   ctor Generral for the Railroad
                                         R        R
                                                  Retirement Board │ P a g e 20
          Semiiannua
                   al Repo
                         ort to th
                                 he Congress                                   October 1,, 2010 •
                                                                               March 31, 2011




      H
      Hotline Contacts
              C      s
The OIGG established its Hotline to receivve complainnts concern
                                                               ning suspeccted fraud,
waste, and
       a abuse in the RRB   B’s programms and operrations. The Hotline provides an
open lin
       ne of commmunication for
                             f individuaals to reporrt suspected
                                                               d criminal activity
                                                                          a        and
misman nagement/wwaste of RR RB funds.

The Ho
     otline receiv
                 ved 777 conntacts durinng this reporting period  d. The follo
                                                                             owing table
summaarizes Hotlin
                 ne referrals or other acctivities durring this rep
                                                                  porting perio
                                                                              od.

                                                     October 1, 2010 –
                                                     O
                   Referral orr Other Acttivity
                                                      March 31,, 2011
                 Referred
                 R         to RRB
                              R     Districct or
                                                             300
                 Regional
                 R         Offfice
                 Other
                 O     (Hang g Ups,
                 Misdirected
                 M             Calls,                        276
                 Disconnectio
                 D            ons, etc.)
                 Referred
                 R         to the
                              t Office of o
                                                             77
                 In
                  nvestigation
                             ns
                 Referred
                 R         to Another
                              A        Feederal
                                                             56
                 Agency
                 A
                 Calls
                 C     with Insufficient
                 In
                  nformation to
                              t Make                         30
                 Appropriate
                 A             Referrals
                 Disposition
                 D            N Yet
                              Not
                 Determined,
                 D              Additional
                                                             22
                 In
                  nformation is
                              i Being
                 Obtained
                 O
                 Referred
                 R        to RRB
                             R   Burea
                                     aus                     11
                 Referred
                 R        to a Railroad                       4
                 Referred
                 R        to Railroad
                             R
                                                              1
                 Medicare
                 M




    Office of Inspec
                   ctor Generral for the Railroad
                                         R        R
                                                  Retirement Board │ P a g e 21
           Semiiannua
                    al Repo
                          ort to th
                                  he Congress                                      October 1,, 2010 •
                                                                                   March 31, 2011




       O
       OTHER OVERS
                 SIGHT ACTIVI
                           VITIES

       A
       American Recov
                    very and
                           d Reinve
                                  estmentt Act of 2009
                                                  2
During this semiannual period d, the OIG continued
                                          c          th
                                                      heir efforts to aide in a transparent
Americaan Recovery  y and Reinvvestment Act
                                          A (ARRA) process byy preparing monthly
progresss reports in formats deeveloped byy the Recovvery Accountability and
Transpaarency Boarrd. These monthly
                               m        rep
                                          ports are puublished on n the Recovvery.gov
website and are als so available
                               e on the RRRB’s Recovvery Act Info ormation we ebpage.
During this semiannual reporting period, OI opened  d 23 additional cases in  nvolving
fraudule
       ent receipt of
                   o extended d ARRA fun  nded UI bennefits.

       O
       Occupat
             tional Diisability
                              y Program
                                      m
The RRB   B’s occupational disab  bility progra
                                              am is a uniq
                                                         que benefit available only
                                                                                 o    to
qualifyin
        ng railroad workers.
                      w          The qualificaation standa
                                                         ards for thiss benefit arre much
differentt and more lenient, tha an those ne  eeded to qu
                                                        ualify for a to
                                                                      otal and peermanent
disabilityy under thee Social Seccurity Act. The
                                               T OIG ha  as reported d detailed in
                                                                                 nformation
regardinng this issue e in previou
                                 us Semiann   nual Reportts to the Coongress; however, it is
importan  nt to note th
                      hat the OIGG continues to devote investigativ
                                                         i           ve and auditt resourcess to
the overrsight of thiss and otherr agency prrograms.

During this semiannual reporting period, the RRB has issued a Disability Program
                    an. The OIG
Integrityy Action Pla         G has revie
                                        ewed this plan and app plauds the agency
                                                                           a       for their
efforts; however,
          h        we
                    w continue to encoura
                                        age the ageency to adopt all of the
                                                                          e following
recomm mendations in connectioon with the occupation
                                                   nal disability program.

   •   All future occupational disability applicants sh
       A                                              hould be se
                                                                ent for a secondary
       m
       medical   scre
                    eening prior to adjudiccation.

   •   The RRB sh
       T            hould requirre the applicant’s immediate supeervisor to co
                                                                             omplete an nd
       certify all RR
                    RB Forms G-251a
                               G        or G-251b.
                                           G         Th
                                                      hese forms are used byb the RRB to
        equest inforrmation from railroad employers
       re                                   e          regarding job duties performed
                                                                            p           b
                                                                                        by
       applicants; however,
                    h         in
                               n a large pe
                                          ercentage of cases thee employerss fail to retu
                                                                                        urn
       th
        he forms orr provide thee requested d informatio
                                                       on.

   •   The RRB sh
       T            hould amend current disability annuitant rem    minder formss to includee an
       annual ques  stionnaire reequiring a certified
                                              c        ressponse from
                                                                    m all disability annuitan
                                                                                            nts.
       Iff the disability annuitan
                                 nt fails to re           gned certification form
                                              eturn the sig                     m within a
       reeasonable timeframe,
                      t           then their disability
                                              d         annnuity shou
                                                                    uld be suspe ended.



    Office of Inspec
                   ctor Generral for the Railroad
                                         R        R
                                                  Retirement Board │ P a g e 22
                     Semiiannua
                              al Repo
                                    ort to th
                                            he Congress                           October 1,, 2010 •
                                                                                  March 31, 2011




      •      The RRB sh
             T           hould amend their currrent self-emmployment/ccorporate in
                                                                                 nvolvementt
             verification form
                          f     to requ
                                      uire more th
                                                 horough annd complete
                                                                     e informatio
                                                                                on. A moree
             comprehens   sive form is currently awaiting
                                                 a        OM
                                                           MB approvaal.

The impplementation of these recommend
                               r            dations wou uld provide disability examiners
                                                                               e         w
                                                                                         with
additional informatiion to consider in theirr adjudicatio
                                                        on process, resulting in better
supporteed decision
                  ns.

             R
             Railroad
                    d Medica
                           are Fraud
                                   d Detection Con
                                                 ntracts
Since 19990, the U.S S. Governmment Accou untability Offfice (GAO)) has design nated Mediicare
as a high-risk area due to its size
                               s    and coomplexity, as
                                                      a well as itss susceptibbility to
mismanagement and imprope     er paymentss. 7 GAO’s February 2011 2     high-riisk update
        es that “[t]he
reiterate            e Medicare program re emains on a path that is fiscally unsustainab
                                                                              u           ble
over thee long term. This fisca
                              al pressure heightens thet need fo  or CMS to immprove
Medicarre’s paymen   nt methods to achievee efficiency and saving gs, and its managemen
                                                                              m           nt,
                                                                8
programm integrity, and
                     a oversigght of patien
                                          nt care and safety.”

GAO furrther statedd that “[i]n 2010,
                                2       Mediccare covere ed 47 millionn elderly an
                                                                                 nd disabledd
beneficia
        aries had estimated
                    e           outlays of $5509 billion. Medicare had estima    ated improper
payments of almos   st $48 billion
                                 n in fiscal year
                                             y    2010. However, this t    impropeer paymentt
estimatee did not inc
                    clude all of the program  m’s risk, sin
                                                          nce it did no
                                                                      ot include im
                                                                                  mproper
payments in its preescription drrug benefit,, for which the
                                                          t agencyy has not ye   et estimated
                                                                                            da
               9
total amount.” Improper payments of th       his magnitud de are unaccceptable and
                                                                                 a innovattive
prevention and detection toolss must be used u     to reduuce their occcurrence.

After tou
        uring the Reecovery Accountabilityy and Transsparency Board’s Ope      erations Cen
                                                                                          nter
and observing theirr fraud dete ection and prevention
                                            p            methods, we
                                                                   w decided to explore
fraud deetection andd preventionn possibilities in the fo
                                                        orm of two limited scoppe Railroad
                                                                                         d
Medicarre fraud dettection conttracts. Sincce we do no  ot have acccess to live claims data
                                                                                          a,
we were e limited to post-payme ent review. The param   meters for both
                                                                   b     contracts were also
narrowe ed by fundinng limitation
                                ns. A brief description
                                             d            of each co
                                                                   ontract follows.

Thomso
     on Reuters
              s

To identtify potentia
                    ally fraudule
                                ent Railroad                   e entered into a
                                           d Medicare claims, we
competittively bid, liimited scop
                                pe contract with Thomsson Reuterrs to review
                                                                           w and analyzze
three ye
       ears worth ofo Railroad Medicare Part
                                           P B claimms. We sele  ected four algorithms
                                                                            a          to
analyze the more than 66 million recordss contained in Railroad d Medicare Part B claims
                                                       
7
  See GAO
        O, High-Risk Series:
                     S           pdate, GAO-11-278 (Washiington, D.C.: 2011).
                             An Up                                     2
8
  Id.
9
  Id.


    Office of Inspec
                   ctor Generral for the Railroad
                                         R        R
                                                  Retirement Board │ P a g e 23
                     Semiiannua
                              al Repo
                                    ort to th
                                            he Congress                                          October 1,, 2010 •
                                                                                                 March 31, 2011




data from
        m calendarr years 2007
                             7, 2008, an
                                       nd 2009. Th
                                                 he following
                                                            g briefly describes the
                                                                                  e four
algorithm
        ms along with
                 w prelimin nary results. 10

          1. Objective: To determ  mine whethe  er any Railrroad Medica are provideers fraudule
                                                                                              ently
             billed for services nott provided.
             Algorithm: Identify Railroad Med   dicare claim
                                                           ms for services incurre ed 60 or moore
             days after the beneficciaries’ recoorded datess of death as
                                                                      a reported on the Soccial
             Security Administratio
                       A            on’s Death Master File e (DMF).
             Preliminaryry results: There
                                    T      were 41 beneficciaries identtified with Railroad
                                                                                   R
             Medicare Part
                         P B servvices incurre  ed 60 or mo ore days affter their dates of death
                                                                                               h
             (as identified by the DMF).
                                    D

          2. Objective: To determ  mine whetheer any Railrroad Medica   are provide
                                                                                  ers fraudule
                                                                                             ently
             billed for emergency
                        e           t
                                    transportat ion to routin
                                                            ne dialysis or physicall therapy
             appointme  ents.
             Algorithm: Identify instances of emergencyy transporta    ation when the patients
             received non-emerge   ency dialysis-related se ervices or physical
                                                                       p        the
                                                                                  erapy on thee
             same day of the transsport.
             Preliminaryry Results: There were e 939 uniqu ue patients who had either dialyssis-
             related serrvices or ph
                                   hysical therapy on the same day as an emerrgency
             transportattion trip.

          3. Objective: To identifyy potential upcoding
                                               u         by Railroad Medicare providers.
                                                                                p
             Algorithm: Analysis of
                                  o the 100 oldest
                                              o       Railro
                                                           oad Medicaare beneficiaries with
             claims.
                       ry Results: There were
             Preliminary                       e 4,028 claim lines asssociated wiith the 100
             oldest beneficiaries with
                                  w paid cla  aims. On average
                                                          a       these patientss had 13.677
             claims for medical care during th he three year period.

          4. Objective: To identifyy improper payments.
             Algorithm: Indentify providers
                                   p          w have su
                                              who          ubmitted cla
                                                                      aims for serrvices afterr
             they were officially sa
                                   anctioned/excluded fro om Governm  ment prograams per the  e
             Office of In
                        nspector Ge eneral for th
                                                he Departmment of Heaalth and Human Servicces’
             List of Exc
                       cluded Indivviduals/Entitties (LEIE)..
             Preliminaryry Results: This algoritthm identified 29 Uniq
                                                                     que Provideer Identification
             Numbers fromf   the LEEIE that hadd Railroad Medicare
                                                           M         professional claims afte er
             their sancttioned date.




                                                       
10
  All resullts are conside
                         ered prelimina
                                      ary because th
                                                   hey require ad
                                                                dditional invesstigation, including medical
review, to validate the re
                         esults.


    Office of Inspec
                   ctor Generral for the Railroad
                                         R        R
                                                  Retirement Board │ P a g e 24
            Semiiannua
                     al Repo
                           ort to th
                                   he Congress                                      October 1,, 2010 •
                                                                                    March 31, 2011




Palantirr Technolo
                 ogies

We had the opportunity to visiit the Recovvery Accou untability an
                                                                 nd Transparrency Board  d’s
Operatio ons Center and observve the functtionality of Palantir Te
                                                                 echnologiess’ (Palantir) data
analysiss platform. In order to gain a bettter understa
                                                      anding of hoow this ana
                                                                            alytical tool may
be utilize
         ed for fraud
                    d detection in the Railrroad Medicaare programm, we enterred into a tw
                                                                                         wo
month data
        d    analysiis pilot proje
                                 ect.

Since we do not ha  ave access to live claimms data, Pa   alantir analyyzed the more than
66 millio
        on records contained
                     c          in
                                 n Railroad Medicare PartP B claim  ms data from m calendar
years 20 007, 2008, and 2009. Their platfo  orm utilized d data fusioon to quicklyy integrate a
variety of
        o informatio on sources including coding
                                            c         patte
                                                          erns that OIG
                                                                    O had iden    ntified in
previouss fraud case es. Palantir was able to fuse thiss informatio  on to identifyy non-obvio
                                                                                             ous
relationsships and patterns
                    p        in the claims data.
                                            d       They were also able to present a grap    phic
display of
         o the Railrooad Medica  are claims data,
                                            d      illustra
                                                          ating provid
                                                                     der billing patterns,
                                                                                 p
timeliness reflecting questionab ble treatme
                                           ent frequenccies, and im  mprobable geospatial
                                                                                 g
connections between providerrs and bene     eficiaries.

Both con ntractors were quickly able to impport and mo odel data, including large volumees of
Railroadd Medicare claims info ormation. Based
                                          B      upon our limitedd experience, we believe
that thesse types of data platfo
                               orms are useful for connducting searches, tessting fraud
hypotheses, and prroviding audit or invesstigative leaads. We be elieve that th
                                                                              hey may bee
beneficiaal for pre-payment ana alysis and predictive
                                           p          m
                                                      modeling  to
                                                                 o help stop improper
                                                                              i
payments before th   hey go out the
                                t door.

       O
       OUTREA
           EACH ACTIVITI
                      TIES
In addition to audit and investigative activvities, OIG staff memb
                                                                 bers perform
                                                                            m outreach as
a meanss to further the office’ss mission. The
                                           T followin  ng are exam
                                                                 mples of ouutreach
activitiess conducted
                    d during this reporting period.

       pector General presen
The Insp                   nted a breakout sessio
                                                on entitled New
                                                            N    Anti-Frraud and
Program
      m Integrity Requiremen
                  R        nts under Health
                                     H          e Reform forr the Acade
                                             Care                      emy of
Manageed Case Pharmacy’s 2010
                           2    Educaational Confference in St.
                                                            S Louis, Missouri.
                                                                      M

The Insp
       pector General attende
                            ed and asssisted at the
                                                  e 2010 Bien
                                                            nnial Nation
                                                                       nal
Procurement and Grant
                G      Confeerence in Philadelphia
                                      P           a, Pennsylva
                                                             ania.

An OI Special Agen  nt received the Award             nce from th
                                          d of Excellen         he Council of
                                                                           o Inspectorrs
General for Integritty and Efficiency (CIGIIE). CIGIE’s annual awards cereemony
recognizzes exemplary perform  mances by Federal
                                           F        law
                                                      w enforcement personnel. The
Special Agent, alonng with felloow investiga
                                           ative team members, received thhis award in
                                                                                     n


    Office of Inspec
                   ctor Generral for the Railroad
                                         R        R
                                                  Retirement Board │ P a g e 25
            Semiiannua
                     al Repo
                           ort to th
                                   he Congress                                        October 1,, 2010 •
                                                                                      March 31, 2011




connection with the
                  e successfu
                            ul prosecution of an ind
                                                   dividual tha
                                                              at electroniccally diverte
                                                                                       ed
       00,000 of Federal
over $70          F      benefit checks into her baank account.

An OI Special Agen                                    am members from varrious other
                   nt, along with other tassk force tea
Federal law enforce ement agen  ncies, received an award from the United Sttates Attorn
                                                                                      ney’s
Office fo
        or the South
                   hern Districct of Texas. This awarrd was in co
                                                                onnection with
                                                                          w the
successsful prosecuution of two doctors. The
                                          T details of this casee are discusssed on page
18 of this report.

OI staff members participated
                    p             in a numbe  er of Mediccare relatedd meetings including
several task
         t    forcess. These task forces provide
                                            p         an open
                                                         o      forum for health care
                                                                                    c    fraud
related communica
         c          ations and foster
                                f       a team approach   h to health care fraud
investigaations. Members of th  he various task
                                             t     forces include reppresentative  es from: the e
Departmment of Justtice; the Ceenters for Medicare
                                            M          an
                                                        nd Medicaid  d Services; the Office of  o
Inspectoor General for
                     f the Dep partment of Health and    d Human Se   ervices; thee Office of
Inspectoor General for
                     f the Officce of Perso onnel Management; the Federal Bureau   B        of
Investigaation; vario
                    ous State Po olice agenccies; various Medicaid Fraud Con      ntrol Units; and
Medicarre Program Safeguard Contractorrs. Since Railroad R         Meedicare is a national
programm, OI staff members
                    m         attend task fo orces in sevveral judiciaal districts.  Participatio
                                                                                                on in
Task Fo orce meetings allows th  he Special Agents to develop
                                                         d         the
                                                                     e necessaryy contacts and  a
informattion to ensuure that Railroad Mediccare fraud losses will be included      d in Medica are
investigaations. The ey also provvide an opp portunity forr OI Speciaal Agents to o become
familiar with
         w the mo   ost recent fraud schem  mes.

A numbe  er of OA sta
                    aff memberrs participated in the Association
                                                      A            of Governm ment
Accounttants’ (AGA A) Chicago Chapter.
                               C         A
                                         AGA    provide
                                                      es a varietyy of networkking and
training opportunitie
                    es for gove
                              ernment aud diting professionals. OA
                                                                 O staff me embers
currentlyy serve on the
                    t Executiive Committtee as Mem    mbership Director
                                                                D         and Website
Director.

An OA staff
        s    membe  er served as
                              a a Session Monitor fo  or AGA’s North
                                                                N      American Compu   uter
Audit, Control, and Security workshop.
                             w            In this capa
                                                     acity, she prrovided logistical supp
                                                                                        port
for the speakers
        s         annd attendee
                              es; introducced speakerrs; and coo ordinated annnounceme  ents
and matterials for th
                    he sessionss she monittored.

A supervvisory audittor serves as
                               a the OIG’’s represen
                                                   ntative at the
                                                                e RRB’s mo
                                                                         onthly
informattion technollogy steerin
                               ng committe
                                         ee meetings.

The Asssistant Inspe
                   ector Geneeral for Audit (AIGA) atttended the
                                                               e National
Intergovvernmental Audit Forumm. This forrum covered current isssues relate
                                                                          ed to the
Recoverry Act, the budget,
                   b       and
                             d financial reform.
                                         r
 



    Office of Inspec
                   ctor Generral for the Railroad
                                         R        R
                                                  Retirement Board │ P a g e 26
           Semiiannua
                    al Repo
                          ort to th
                                  he Congress                                      October 1,, 2010 •
                                                                                   March 31, 2011




The AIG
      GA also atte
                 ended the 2010
                            2     Annuaal CIGIE/GA AO Financia al Statemen nt Audit
Conference. This conference
                  c         e covered cuurrent issue
                                                   es related to the annua al financial
statement audits an
                  nd related standards,
                             s          including to
                                                   opics on acccountabilityy issues and
new Imp
      proper Paym ments Requ uirements and
                                        a Guidan   nce.

       O
       OPERATIONAL ISSU
                      UES
The follo
        owing opera ational issu
                               ue impacts the
                                          t OIG’s ability
                                                   a      to effe
                                                                ectively carrry out its
oversighht role. This
                    s issue wouuld have to be remedie
                                                    ed with legislative chaange.

       N
       National
              l Railroa
                      ad Investment Trust
                                    T
The NRRRIT was esstablished by
                            b RRSIA to
                                     o manage and
                                              a invest Railroad
                                                          R       Re
                                                                   etirement
assets. As of Janu
                 uary 2011, the
                            t RRB’s investmentss in the NR
                                                         RRIT were valued
                                                                   v      at
approxim
       mately $25 billion.

Although  h the NRRIT is a tax-e  exempt entiity independ  dent of the Federal goovernment,
RRSIA requires
         r          thaat the NRRIT report to  o the RRB. This office has previo ously expresssed
concerns about the     e RRB’s passsive relatio onship with
                                                          h the NRRIT T and has iddentified th
                                                                                             he
RRB’s oversight
        o            in this area as
                                  a a critical issue. How  wever, RRS SIA does no ot provide the
OIG with h oversight authority to  o conduct audits
                                               a       and investigatio
                                                                      ons of the NRRIT.
                                                                                 N        Thiss
office beelieves that independe   ent oversigh ht of the NR
                                                          RRIT’s operrations is neecessary too
ensure that
         t     sufficie
                      ent reportingg mechanissms are in place
                                                           p     and too ensure th
                                                                                 hat the Trusstees
are fulfilling their fid
                       duciary respponsibilitiess.

       L
       LEGISL
            LATIVE & REG
                       GULATO
                            ORY RE
                                 EVIEW
The Insspector Gen neral Act off 1978, as amended,
                                          a         re
                                                     equires thee Inspector General to
review existing
        e        and
                   d proposed d legislation
                                          n and regula
                                                     ations relating to the programs
                                                                            p         annd
operatioons of the agency.
                   a        Thhe OIG did not make any
                                                    a comments during this   t   reportin
                                                                                        ng
period.




    Office of Inspec
                   ctor Generral for the Railroad
                                         R        R
                                                  Retirement Board │ P a g e 27
      APPENDICES
                                                                             Page
Appendix Title
                                                                              No.
     A       Office of Inspector General Reports and Other Publicly              29
             Available Documents Issued
     B       Audit Reports with Questioned Costs or with                         30
             Recommendations that Funds be Put to Better Use
     C       Report on Receivables, Waivers, and Recoveries                      31
     D       Significant Matters                                                 33
     E       Peer Reviews                                                        34
     F       Reports Prepared by Management                                      35
     G       Reporting Requirements                                              40
     H       Acronyms                                                            41
     I       Legal References                                                    42




    Office of Inspector General for the Railroad Retirement Board │ P a g e 28
 


                 Appendix A – Office of Inspector General Reports and Other
                 Publicly Available Documents Issued
     • Management and Performance Challenges Facing the Railroad Retirement Board,
     October 15, 2010 11

     • Fiscal Year 2010 Evaluation of Information Security at the Railroad Retirement Board,
     November 5, 2010

     • Opinion on the Financial Statements of the Railroad Retirement Board, November 5, 2010 12

     • Report on the Railroad Retirement Board’s Fiscal Year 2010 Financial Statements,
     November 15, 2010

     • Fiscal Year 2010 Financial Statement Audit Letter to Management, January 25, 2011

     ● Review of the Railroad Retirement Board’s Audit and Compliance Division,
     February 1, 2011

     • Concerns Related to the Railroad Retirement Board’s Audit and Compliance Division’s
     Employer Audit Reports, March 31, 2011

    All audits and other publicly available documents are available on our website
    at www.rrb.gov/oig.




                                                           
    11
      Published as pages 111-115 of the Railroad Retirement Board’s Fiscal Year 2010 Performance and Accountability
    Report.
    12
      Published as pages 100 – 107 of the Railroad Retirement Board’s Fiscal Year 2010 Performance and
    Accountability Report.


                Office of Inspector General for the Railroad Retirement Board │ P a g e 29
 


            Appendix B – Audit Reports with Questioned Costs or
            with Recommendations That Funds be Put to Better Use
     

                                                Audit Reports
                                                                 Amount of         Amount of
                                                    with
                                                                 Questioned       Unsupported
                                                 Questioned
                                                                   Costs             Costs
                                                   Costs
    A. For which no management decision had
    been made by October 1, 2010
                                                      0                 0              0
    B. Which were issued from October 1, 2010
    through March 31, 2011
                                                      2           $2.7 Million         0
    Subtotal (A + B)                                  2           $2.7 Million         0
    C. For which a management decision was
    made between October 1, 2010 through              0                 0              0
    March 31, 2011
    (i) dollar value of disallowed costs              0                 0              0
    (ii) dollar value of costs not disallowed         0                 0              0
    D. For which no management decision had
    been made by March 31, 2011
                                                      2           $2.7 Million         0
    E. Report for which no management
    decision was made within six months of            0                 0              0
    issuance




                                                            Audit Reports With
                                                            Recommendations
                                                                                   Dollar Value
                                                           that Funds Be Put to
                                                                Better Use
    A. For which no management decision had been made by
    October 1, 2010
                                                                    0                   0
    B. Which were issued from October 1, 2010 through
    March 31, 2011
                                                                    0                   0
    C. Subtotal (A + B)                                             0                   0
    (i) dollar value of disallowed costs                            0                   0
    (ii) dollar value of costs not disallowed                       0                   0
    D. For which no management decision had been made by
    March 31, 2011
                                                                    0                   0
    E. Report for which no management decision was made
    within six months of issuance
                                                                    0                   0




        Office of Inspector General for the Railroad Retirement Board │ P a g e 30
 


          Appendix C – Report on Receivables, Waivers, and
          Recoveries
    The FY 1999 appropriations language for the OIG requires the reporting of additional
    information concerning actual collections, offsets, and funds put to better use achieved
    as a result of the OIG’s activities.

                               Office of Investigations
    Recoveries realized by the RRB resulting from court-ordered restitution and civil
    damages:

                                                  Amount
                              Fiscal Year
                                                  Recovered
                                  1999            $ 855,655
                                  2000            $1,038,134
                                  2001            $ 990,356
                                  2002            $ 785,843
                                  2003            $ 947,876
                                  2004            $ 646,273
                                  2005            $ 844,183
                                  2006            $1,281,680
                                  2007            $1,347,049
                                  2008            $1,389,489
                                  2009            $1,097,227
                                  2010            $1,118,256
                           October 1, 2010 –
                                                  $   847,249
                            March 31, 2011

     




        Office of Inspector General for the Railroad Retirement Board │ P a g e 31
 




                                                                Office of Audit

                                      Funds to be               Funds
                                                                              Receivables              Recoveries
                     Report           put to better            Agreed by
                                                                              Established   Waivers     to Date 13
                                           use                Management
                         99-03                  $50,850             $50,850       $50,850    $50,490          $360
                         99-14                  $83,000             $83,000       $34,423         $0       $30,584
                         99-16           $48,000,000            $48,000,000            $0         $0   $17,300,000
                         99-17           $11,000,000            $11,000,000            $0         $0    $1,604,545
                         00-16                $235,000             $235,000            $0         $0      $253,846
                         03-06                $306,129                  N/A            $0         $0      $306,129
                         04-06                $821,000             $821,000      $604,429     $5,564      $629,688
                         04-10              $400,000              $400,000              $0       $0      $761,151
                         05-03             $1,800,000            $1,800,000     $4,574,902 $337,700     $2,100,115
                         05-06                  $10,000             $10,000            $0         $0       $42,915
                         05-07             $1,070,000            $1,070,000       $49,943         $0       $86,307
                         05-10             $2,600,000            $2,600,000                 $311,000
                         06-04                $257,000             $257,000
                         06-05                  $2,100               $2,100            $0         $0            $0
                         06-06                $200,000             $200,000       $13,651         $0       $20,671
                         09-02                $600,000             $600,000          $320         $0      $326,423
                         10-09             $3,355,408            $3,355,408            $0         $0            $0
                         10-13                $212,038              $92,412            $0         $0            $0




                                                           
    13
         Both overpayments and underpayments are included in this column.



        Office of Inspector General for the Railroad Retirement Board │ P a g e 32
 


            Appendix D – Significant Matters
    The OIG has identified deficiencies in controls over non-integrated subsystems and
    information security as significant matters. A summary of the issues and related
    recommendations for corrective action follow.

              Internal Control over Non-Integrated Subsystems
    The OIG identified the RRB’s non-integrated subsystems as a material weakness. The
    RRB’s financial reporting control structure is not comprehensive with respect to the
    reconciliation of the general ledger to non-integrated subsystems. During the fourth
    quarter of FY 2010, the agency created an inventory of the various non-integrated
    systems that support financial accounting. Although this shows that progress is being
    made to address this material weakness, the agency has not yet implemented a
    comprehensive reconciliation process with adequate separation of duties.

    Non-integrated Subsystems                   March 11, 2010       Report OIG 10-03, #2


                                        Information Security
    The OIG previously evaluated information security pursuant to the provisions of FISMA
    and concluded that the RRB has not yet achieved an effective FISMA-compliant
    security program. Although agency managers are working to strengthen controls,
    management action in response to the following OIG recommendations had either not
    been completed as of the end of the current semiannual reporting period or had not
    been in place long enough to permit evaluation.

    Internal Control Over Certification and     July 18, 2005        Report OIG 05-08, #4
    Accreditation
                                                September 30, 2008   Report OIG 08-05, #2 and 7
                                                November 12, 2009    Report OIG 10-01, #1 and 5




        Office of Inspector General for the Railroad Retirement Board │ P a g e 33
 


          Appendix E – Peer Reviews
    Section 989C of the Dodd-Frank Wall Street Reform and Consumer Protection Act
    requires Inspectors General to provide information regarding peer reviews in their
    Semiannual Reports to the Congress.
    During this reporting period, the OIG did not conduct any peer reviews.

          Office of Audit
    In general, Federal audit organization may receive a peer review rating of pass, pass
    with deficiencies, or fail.

    The results of OA’s most recent peer review (which was for the year ended
    March 31, 2009) were transmitted on August 24, 2009. OA received a peer review
    rating of pass. This peer review did not contain any recommendations.

          Office of Investigations
    In general, Federal OIG investigative organizations may receive a peer review rating of
    fully compliant, compliant, or not compliant with the quality standards established by the
    Council of the Inspectors General on Integrity and Efficiency and the Attorney General’s
    Guidelines for Inspectors General with law enforcement authority based on Section 6(e)
    of the Inspector General Act, as amended.

    The results of OI’s most recent peer review (which was for the FY ended
    September 30, 2007) were transmitted on March 26, 2008. OI received a peer review
    rating of fully compliant. There are currently no outstanding recommendations.

                                




        Office of Inspector General for the Railroad Retirement Board │ P a g e 34
 


          Appendix F – Reports Prepared by Management


                   Final Action on Audits with Disallowed Costs
    For the 6-Month Period Ending                            Number of           Disallowed
    March 31, 2011                                          audit reports           costs

    A.   Audit reports, with management decisions, on
         which final action had not been taken at the            0                   $0
         beginning of the period.
    B.   Audit reports on which management decisions
         were made during the period.                            0                   $0

    C.   Total audit reports pending final action during
         the period. (A + B)                                     0                   $0

    D.   Audit reports on which final action was taken
         during the period.

         1.    Recoveries

               (a) Collections and offsets                       0                   $0

               (b) Property                                      0                   $0

               (c) Other                                         0                   $0

         2.    Recovery Waived                                   0                   $0

         3.    Total of 1 and 2                                  0                   $0

    E.   Audit reports needing final action at the end of
         the period (C - D.3).                                                       $0
                                                                  0




        Office of Inspector General for the Railroad Retirement Board │ P a g e 35
      


                    Management Report on Final Action on Audits with
                   Recommendations to Put Funds to Better Use for the
                         6-Month Period Ending March 31, 2011
                                                                       Number of                  Funds to be
                                                                      audit reports             put to better use
A.         Audit reports, with management decisions, on
           which final action had not been taken at the
           beginning of the period.                                         5                     $4,249,920*

B.         Audit reports on which management decisions
           were made during the period.                                     0                           $0

C.         Total audit reports pending final action during
           the period. (A + B)                                              5                     $4,249,920

D.         Audit reports on which final action was taken
           during the period.

           1.     Value of recommendations implemented
                  (completed)                                               0                           $0

           2.     Value of recommendations that
                  management concluded should not or
                  could not be implemented (completed)                      0                           $0

           3.     Total of 1 and 2                                          0                           $0

E.         Audit reports needing final action at the end of
           the period (C - D.3)                                             5                     $4,249,920




         * Comprised of the following amounts: $2,100 from Audit Report 06-05, Review of Compliance with
         Provisions of the Railroad Retirement Act Governing the Initial Award of Benefits, $200,000 from Audit
         Report 06-06, Review of the Termination and Suspension of Benefits Paid Under the Railroad Retirement
         Act, $600,000 from Audit Report 09-02, Fiscal Year 2008 Financial Statement Audit Letter to
         Management, $3,355,408 from Audit Report 10-09, Audit of Internal Controls over Medicare Premium
         Transfers Between the Railroad Retirement Board and the Centers for Medicare and Medicaid Services,
         and $92,412 from 10-13 Railroad Medicare Services Billed with Dates of Service after Beneficiaries’
         Dates of Death.




             Office of Inspector General for the Railroad Retirement Board │ P a g e 36
        


Management Statement on Resolved Audit Reports Over 12 Months
      Old with Final Action Pending as of March 31, 2011 
                                                    Disallowed Funds to be put
Report                                     Date        costs    to better use        Reason action not completed
Fiscal Year 2000 Financial Statement      2/23/01     NONE         NONE        While help desk procedures have been
Audit (01-03)                                                                  upgraded, the Bureau of Information
                                                                               Services is still developing procedures
                                                                               to close the last open recommendation.

Review of Information Security at the     2/5/02      NONE          NONE       Information Services has closed 26 out
Railroad Retirement Board (02-04)                                              of 28 recommendations. A complete
                                                                               review has not yet been completed.
                                                                               Bureau of Information services will
                                                                               provide documentation once review is
                                                                               complete.

Inspection of Unverified Records in the   3/20/03     NONE          NONE       Programs reviewed all 20,000 records
RRB’s Employment Data Maintenance                                              and are using a recently implemented
System (03-06)                                                                 tracking system to close the last
                                                                               recommendation, however due to
                                                                               ARRA and WHBAA work, project was
                                                                               extended to 12/31/2011 to be
                                                                               completed.

Review of Internal Control Over the       5/5/05      NONE          NONE       The Chief Actuary is still reviewing their
Actuarial Projection Process (05-04)                                           options to best implement this
                                                                               recommendation.

Review of LAN, LAN Security Scan and      6/7/05      NONE          NONE       These contractor-prepared confidential
Web-based Applications (DSD)                                                   reports contained 45
                                                                               recommendations, with 39 closed thus
                                                                               far.

Review of Access Controls in the End-     7/18/05     NONE          NONE       Information Services has closed 14 of
User Computing General Support                                                 15 recommendations in this
System (05-08)                                                                 confidential report. As reported
                                                                               previously, new risk assessment still
                                                                               must be submitted for remaining case.

Fiscal Year 2005 Evaluation of            9/28/05     NONE          NONE       Bureau of Information Services has
Information Security at the Railroad                                           taken steps to have all bureaus use the
Retirement Board (05-11)                                                       SharePoint POAM website. Work
                                                                               continues.

Accuracy and Reliability of GPRA          1/30/06     NONE          NONE       Programs have closed five of the seven
Performance Measures: Timeliness of                                            recommendations. One
Non-Disability Survivor Annuity                                                recommendation has been delayed
Payments (06-03)                                                               due to higher priority project and the
                                                                               other recommendation, new SIS
                                                                               Manager will draft instructions in FY11.

Review of Compliance with the             4/12/06     NONE          $2,100     Programs staff closed four of the five
Provisions of the Railroad Retirement                                          recommendations. Project is awaiting
Act Governing the Initial Award of                                             completion of the AARP project.
Benefits (06-05)



               Office of Inspector General for the Railroad Retirement Board │ P a g e 37
        


Management Statement on Resolved Audit Reports Over 12 Months
      Old with Final Action Pending as of March 31, 2011 
                                                      Disallowed Funds to be put
Report                                      Date         costs    to better use       Reason action not completed
Review of the Termination and              5/24/06      NONE        $200,000     Programming work on a referral system
Suspension of Benefits Paid Under the                                            is pending that should close out the
Railroad Retirement Act (06-06)                                                  remaining open recommendation.

Review of Incident Handling and            8/24/06      NONE          NONE       Work continues on training material
Reporting at the Railroad Retirement                                             and progress has been made to the
Board (06-09)                                                                    updating of policies.

Audit of the DAISY/CHICO Component          3/9/07      NONE          NONE       Resources were diverted to higher
Application of the RRA Benefit Payment                                           priority projects.
Major Application System (07-02)

Audit of the State Wage Match Data         3/28/07      NONE          NONE       Coordination required with outside
Transmission Controls (07-04)                                                    agencies. Programs completed and
                                                                                 implemented one of the two remaining
                                                                                 recommendations. The last
                                                                                 recommendation is schedule to be
                                                                                 completed in FY12.

Evaluation of the Railroad Retirement      7/30/07      NONE          NONE       New CPO was appointed. Additional
Board’s Privacy Program (07-06)                                                  funding and resources are needed. Of
                                                                                 the 16 recommendations, 12 have
                                                                                 been closed with 3 targeted for
                                                                                 completion during FY11 and 1 for
                                                                                 FY12.

Audit of Federal Income Taxes Withheld     7/30/07      NONE          NONE       Coordination required with another org.
from Railroad Retirement Annuities                                               Four of the six recommendations have
(07-07)                                                                          been closed, with the rest targeted for
                                                                                 completion in FY11.

Fiscal Year 2007 Evaluation of             9/27/07      NONE          NONE       Policy and procedures are still being
Information Security at the Railroad                                             developed. Recommendations are
Retirement Board (07-08)                                                         targeted for completion in FY11.

Audit of Controls to Safeguard Sensitive   9/27/07      NONE          NONE       Coordination is required with an
Personally Identifiable Information                                              outside contractor on 1
(07-09)                                                                          recommendation and work plans,
                                                                                 policy and procedures are still being
                                                                                 developed for all other
                                                                                 recommendations. Target date for
                                                                                 completion is FY11.

Fiscal Year 2007 Financial Statement        3/6/08      NONE          NONE       Bureau of Fiscal Operations
Audit Letter to Management (08-01)                                               implemented enhanced controls in
                                                                                 FY10 however additional work is
                                                                                 needed to correct errors.

Evaluation of Information Security for     09/26/08     NONE          NONE       Work plans, policy and/or procedures
the RRB’s Financial Interchange Major                                            continue with target completion in FY11
Application – Abstract (08-03)                                                   and one in FY12.



               Office of Inspector General for the Railroad Retirement Board │ P a g e 38
        


Management Statement on Resolved Audit Reports Over 12 Months
      Old with Final Action Pending as of March 31, 2011 
                                                      Disallowed Funds to be put
Report                                       Date        costs    to better use       Reason action not completed
Fiscal Year 2008 Evaluation of             09/26/08     NONE         NONE        Coordination is still required with
Information Security at the RRB (08-05)                                          outside contractor; and additional
                                                                                 documentation is requested by OIG.

Fiscal Year 2008 Financial Statement       03/24/09     NONE        $600,000     Review and updating of
Audit Letter to Management (09-02)                                               documentations along with case
                                                                                 reviews are currently being performed
                                                                                 on remaining recommendations.

Audit of Internal Control Over Accounts    03/31/09     NONE          NONE       Documentation was submitted for
Payable (09-03)                                                                  implementation on one
                                                                                 recommendation, another requires
                                                                                 coordination with another organization
                                                                                 and one is awaiting the results of a
                                                                                 quarterly review.

Audit of the Railroad Medicare Integrity   09/25/09     NONE          NONE       Additional documentations were
Program at Palmetto Government                                                   submitted for the 4 remaining
Benefits Administrators (09-04)                                                  recommendations to the OIG for
                                                                                 implementation and coordination is
                                                                                 required with outside agency on those
                                                                                 recommendations issued to the outside
                                                                                 agency.

Audit of the General and Application       09/30/09     NONE          NONE       Work plans, policy and/or procedures
Controls in the Financial Management                                             continue with target completion in
Major Application System (09-05)                                                 FY11.


Audit of the Railroad Retirement Board’s   09/30/09     NONE          NONE       Of the 9 recommendations, 4 have
Medicare Major Application System                                                been implemented and 2 were rejected
(09-06)                                                                          with work on the remaining 3 to be
                                                                                 completed in FY11.

Fiscal Year 2009 Evaluation of             11/12/09     NONE          NONE       The Bureau of Information Services will
Information Security (10-01)                                                     review and take the necessary
                                                                                 action(s). Target completion in FY11.

Fiscal Year 2009 Financial Statement       03/11/10     NONE          NONE       Documentation was submitted to OIG
Audit Letter to Management (10-03)                                               for implementation on last open
                                                                                 recommendation. OIG indicated they
                                                                                 will assess the request for closure
                                                                                 during the FY2011 financial statement
                                                                                 audit.




               Office of Inspector General for the Railroad Retirement Board │ P a g e 39
 


           Appendix G – Reporting Requirements
    Act Reference       Inspector General Reporting Requirements              Page(s)
    Section 4(a) (2)    Review of Legislation and Regulations                     27
    Section 5(a) (1)    Significant Problems, Abuses, and Deficiencies              33
    Section 5(a) (2)    Recommendations With Respect to Significant                 33
                        Problems, Abuses, and Deficiencies
    Section 5(a) (3)    Prior Significant Recommendations Not Yet                   33
                        Implemented
    Section 5(a) (4)    Matters Referred to Prosecutive Authorities              3, 12
    Section 5(a) (5)    Instances Where Information Was Refused                  None
    Section 5(a) (6)    List of Audit Reports                                       29
    Section 5(a) (7)    Summary of Each Significant Report                      4 – 11
    Section 5(a) (8)    Statistical Tables on Management Decisions on               30
                        Questioned Costs
    Section 5(a) (9)    Statistical Tables on Management Decisions on               30
                        Recommendations That Funds be Put to Better
                        Use
    Section 5(a) (10)   Summary of Each Audit Report Over 6 Months                  11
                        Old for Which No Management Decision Has
                        Been Made
    Section 5(a) (11)   Description and Explanation for Any Significant         None
                        Revised Management Decision
    Section 5(a) (12)   Information on Any Significant Management               None
                        Decisions With Which the Inspector General
                        Disagrees



    Act Reference       Management Reporting Requirements                     Page(s)
    Section 5(b) (1)    Comments Deemed Appropriate                         Transmittal
                                                                                 Letter
    Section 5(b) (2)    Statistical Table on Final Action on Disallowed             35
                        Costs
    Section 5(b) (3)    Statistical Table on Final Action to Put Funds to           36
                        Better Use
    Section 5(b) (4)    Statement on Audit Reports With Final Action          37 – 39
                        Pending




        Office of Inspector General for the Railroad Retirement Board │ P a g e 40
 


            Appendix H – Acronyms
    Acronym       Explanation

    ACD           Audit and Compliance Division for the Railroad
                  Retirement Board
    ACE           Affirmative Civil Enforcement
    AGA           Association of Government Accountants
    AIGA          Assistant Inspector General for Audit
    ARRA          American Recovery and Reinvestment Act of 2009
    BFO           Bureau of Fiscal Operations for the Railroad
                  Retirement Board
    CIGIE         Council of Inspectors General for Integrity and
                  Efficiency
    CMS           Centers for Medicare and Medicaid Services
    DMF           Social Security Administration’s Death Master File
    FISMA         Federal Information Security Management Act of 2002
    FY            Fiscal Year
    GAGAS         Generally Accepted Government Auditing Standards
    GAO           U.S. Government Accountability Office
    LEIE          Department of Health and Human Services’ List of
                  Excluded Individuals/Entities
    MOU           Memorandum of Understanding
    NRRIT         National Railroad Retirement Investment Trust
    OA            Office of Inspector General for the Railroad
                  Retirement Board – Office of Audit
    OI            Office of Inspector General for the Railroad
                  Retirement Board – Office of Investigations
    OIG           Office of Inspector General for the Railroad
                  Retirement Board
    OMB           Office of Management and Budget
    RRA           Railroad Retirement Act                                 
    RRB           Railroad Retirement Board
    RRSIA         Railroad Retirement and Survivors’ Improvement Act
                  of 2001
    RUIA          Railroad Unemployment Insurance Act
    SI            Sickness Insurance
    UI            Unemployment Insurance




        Office of Inspector General for the Railroad Retirement Board │ P a g e 41
 


          Appendix I – Legal References

    Federal:
    Aiding and Abetting in Health Care Fraud – 18 U.S.C. § 1347

    American Recovery and Reinvestment Act of 2009 – P.L. 111–5

    Conspiracy to Commit Health Care Fraud – 18 U.S.C. § 1349

    Dodd-Frank Wall Street Reform and Consumer Protection Act - P.L. 111–203

    False Claims Act – 31 U.S.C. §§ 3729 – 3733

    Federal Information Security Management Act of 2002 – 44 U.S.C. § 3531, et. seq.

    Health Care Fraud – 18 U.S.C. § 1347

    Improper Payments Elimination and Recovery Act of 2010 – P.L. 111-204

    Inspector General Act of 1978, as amended – 5 U.S.C. App. 3

    Railroad Retirement Act – 45 U.S.C. § 231, et. seq.

    Railroad Unemployment Insurance Act – 45 U.S.C. § 351, et. seq.

    Railroad Retirement and Survivors’ Improvement Act of 2001 – P.L 107–90

    Reports Consolidation Act of 2000 – P.L. 106-531

    Social Security Act – 42 U.S.C. § 301, et seq.

    Theft of Public Money/Government Funds/Government Property – 18 U.S.C. § 641

    Wire Fraud – 18 U.S.C. § 1343




        Office of Inspector General for the Railroad Retirement Board │ P a g e 42
 

                           REPORT

          FRAUD, WASTE, AND ABUSE




             




                  Call the OIG Hotline:
                         1-800-772-4258

                 E-mail: hotline@oig.rrb.gov

    The OIG cannot ensure confidentiality to persons who provide
    information via e-mail. Do not send information by e-mail that
                you do not want a third party to read.

                Write: RRB, OIG Hotline Officer
                       844 N. Rush Street
                 Chicago, Illinois 60611-2092
 


 
